Audit Report




OIG-11-024
Audit of the Community Development Financial Institutions
Fund’s Fiscal Years 2010 and 2009 Financial Statements


November 15, 2010




Office of
Inspector General
Department of the Treasury
       The Community Development Financial Institutions Fund (CDFI)
           Performance and Accountability Report (PAR) FY 2010
does not conform to the requirements of Section 508 of the Rehabilitation Act;

      To obtain a Section 508 compliant copy of CDFI’s FY 2010 PAR,
                               contact CDFI


                                  Also see:

         Web Accessibility and Section 508 Compliance policy page
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             November 15, 2010


            MEMORANDUM FOR DONNA J. GAMBRELL, DIRECTOR
                           COMMUNITY DEVELOPMENT FINANCIAL
                           INSTITUTIONS FUND

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Community Development Financial Institutions
                                    Fund’s Fiscal Years 2010 and 2009 Financial Statements


            I am pleased to transmit the attached audited Community Development Financial
            Institutions Fund (CDFI) financial statements for fiscal years 2010 and 2009.
            Under a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an audit of CDFI’s
            statements of financial position as of September 30, 2010 and 2009 and the
            related statements of operations and changes in net position and cash flows for the
            years then ended. The contract required that the audit be performed in accordance
            with generally accepted government auditing standards; applicable provisions of
            Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
            Federal Financial Statements, as amended; and the GAO/PCIE Financial Audit
            Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG LLP found that the financial statements were fairly presented, in
            all material respects, in conformity with U.S. generally accepted accounting
            principles. However, KPMG LLP identified a significant deficiency related to
            accounting for investments, which was not considered a material weakness.
            Further, KPMG LLP found no instances of reportable noncompliance with laws and
            regulations tested.
KPMG LLP also issued a management letter dated November 10, 2010, discussing
matters involving internal control over financial reporting that were identified during
the audit but were not required to be included in the auditors’ reports. This letter
will be transmitted separately.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on CDFI’s financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. KPMG
LLP is responsible for the attached auditors’ reports dated November 10, 2010,
and the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with generally
accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audits, at
(202) 927-5591.

Attachment
Community Development Financial Institutions Fund
     United States Department of the Treasury


      Performance and Accountability Report
                    FY 2010
THIS PAGE INTENTIONALLY LEFT BLANK
                                        Table of Contents


Message from the Director……… ………………………………………...…….…….……………...………..……….3
Community Development Financial Institutions Fund Overview………………...…………………...…....…..………4
      Program Discussion and Analysis……………………………………..….………….……………….……... .11
       Community Development Financial Institutions Program………………..………….………...………….…12
       New Markets Tax Credit Program ……………..……………………….….…………………….………….15
       Bank Enterprise Award Program…….……….………………………..……………… ……………………18
       Native Initiatives…………………………….………………………….….………………………………...19
       Financial Education and Counseling Pilot Program……………………………………………………..….20
       Capital Magnet Fund…………………………………………………………………………………….….21
       Small Business Bond Guarantee Program ………….………………...…………………………………….21
 Status of Financial Management……………….……………..….………….….…………………………...……….22
Independent Auditor’s Report ……..………………………………………………………………………………30
Financial Statements and Notes……………………………..………….……………………………………………40




Appendices


  Appendix A: FY 2009 CDFI Fund Award and Allocation Activities
  Appendix B: FY 2010 CDFI Fund Award and Allocation Activities
  Appendix C: Aggregate Awards (Total CDFI Fund Awards From Inception)
  Appendix D: Glossary of Terms




                                                                                       2
Message from the Director
It is my pleasure to present the fiscal year 2010 Performance and Accountability Report for the Community
Development Financial Institutions (CDFI) Fund. Fiscal year (FY) 2010 marked the 15th anniversary of the CDFI
Fund, which was a year full of many successful accomplishments. We were called upon to play a significant role in
helping the country recover from a serious recession and, as this Report demonstrates, the CDFI Fund has been at the
forefront of many national economic recovery efforts.

During FY 2010, the CDFI Fund announced more awards under our programs than any other year in our history.
Through our flagship CDFI Program, we awarded $104.8 million in grants to 147 CDFIs and 32 organizations serving
distressed communities in 44 states and the District of Columbia. These grants will help financial institutions that
support local entrepreneurs and small businesses, and spur local economic growth and recovery by expanding access
to capital and affordable financial services in underserved areas.

Building upon our success, we introduced a new funding initiative during FY 2010 - the Capital Magnet Fund,
through which the CDFI Fund provides grants to organizations financing affordable housing developments. In
October 2010, the CDFI Fund announced $80 million in grants to 23 organizations serving 38 states. The CDFI Fund
also participated in the implementation of another important initiative launched by the Department of the Treasury --
the Community Development Capital Initiative (CDCI), which offered low-cost capital to federally insured CDFIs in
order to enhance their ability to provide credit in distressed communities. Almost $570 million was made available
through CDCI to 84 CDFIs.

In FY 2010, the CDFI Fund launched our Capacity Building Initiative, designed to greatly expand technical assistance
and training opportunities for CDFIs nationwide. The first five task orders to be completed will cover the following
areas: CDFI solutions for foreclosure prevention; CDFI business expansion; portfolio management and risk
assessment; liquidity and capitalization; and financing healthy food options.

We are mindful of the responsibility that the CDFI Fund plays in promoting economic revitalization in our nation’s
most distressed communities. In collaboration with the Federal Reserve and other federal agencies, we sponsored a
series of workshops on economic development in Indian Country. The workshops, which were held in five different
cities throughout the summer, provided an opportunity for over 400 economic and community developers to learn
about federal, state and local resources for economic development in Native communities.

Certification and compliance are as important as award distribution and capacity building when it comes to the
successful administration of our programs, and the CDFI Fund performed exceptionally well with meeting its
certification and compliance goals in FY 2010. We successfully monitored 125 Recovery Act awardees through the
CDFI Program and New Markets Tax Credit (NMTC) Program for compliance with quarterly reporting requirements.
In addition, CDFI Fund staff certified or re-certified approximately 200 entities as CDFIs, including 95 that were
processed over a 60-day period at the end of the fiscal year.

In closing, I want to recognize and thank the CDFI Fund staff for their dedication and exemplary service to serving
low-income communities across the nation. Building on our accomplishments, we will continue to focus on the
challenges that lie ahead as we keep our core mission in the forefront of our daily work - to serve economically
distressed communities throughout the United States.

Donna J. Gambrell
Director
Community Development Financial Institutions Fund



                                                                                                                      3
Community Development Financial Institutions Fund

Overview
The Community Development Financial Institutions (CDFI) Fund was created for the purpose of promoting economic
and community development through investment in and assistance to community development financial institutions
(CDFIs). The CDFI Fund’s role in promoting community and economic development was expanded in FY 2001 when
the Secretary of the Treasury delegated to the CDFI Fund the responsibility of administering the New Markets Tax
Credit (NMTC) Program. The breadth and depth of the CDFI Fund’s reach was further expanded in FY 2008, with the
enactment of legislation that created the Financial Education and Counseling (FEC) Pilot Program, and in FY 2009
with the enactment of legislation that created the Capital Magnet Fund (CMF), both of which were implemented in FY
2010.

Since its creation in 1994, the CDFI Fund has awarded $1.3 billion to CDFIs, community development organizations,
and financial institutions through the CDFI Program, the Bank Enterprise Award (BEA) Program, and the Native
Initiatives. In addition, the CDFI Fund has allocated $26 billion in tax credit authority to Community Development
Entities (CDEs) through the NMTC Program.

Authorizing Legislation
The CDFI Fund was established as a bipartisan initiative under the Riegle Community Development and Regulatory
Improvement Act of 1994, which authorized the CDFI and BEA Programs. The NMTC Program was authorized
through the Community Renewal Tax Relief Act of 2000 and reauthorized as part of the Tax Relief and Health Care
Act of 2006. The FEC Pilot Program and the CMF were authorized through the Federal Housing Finance Regulatory
Reform Act of 2008.

CDFI Fund’s Vision and Mission
The CDFI Fund’s vision is to economically empower America’s underserved and distressed communities. Its mission
is to increase economic opportunity and promote community development investments for underserved populations
and in distressed communities in the United States. The CDFI Fund achieves its purpose by promoting access to
capital and local economic growth through:

       1) the Community Development Financial Institutions Program, which provides Financial Assistance
          awards to institutions that are certified as CDFIs; also Technical Assistance grants to certified CDFIs as
          well as entities that will become certified as CDFIs within three years;

       2) the New Markets Tax Credit Program, which provides tax allocation authority to certified CDEs,
          enabling investors to claim tax credits against their federal income taxes; the CDEs in turn use the capital
          raised to make investments in low-income communities;

       3) the Bank Enterprise Award Program, which provides monetary awards to FDIC-insured banks for
          increasing their investment in low-income communities and/or in CDFIs;

       4) the Native Initiatives, which provide Financial Assistance awards, Technical Assistance grants, and
          training to CDFIs created specifically to serve Native Communities and to other Native entities proposing
          to become or to create Native CDFIs;

       5) the Capital Magnet Fund, which provides grants for CDFIs and other non-profits to finance the
           development, rehabilitation, and purchase of affordable housing for low-income people; and
                                                                                                                         4
         6) the Financial Education and Counseling Pilot Program, which provides financial assistance awards to
            enable certified CDFIs and other eligible organizations to deliver a variety of financial education and
            counseling services to prospective homebuyers.

What is a CDFI?
CDFIs are community-based specialized financial institutions that serve low-income people or work in economically
distressed communities, often working in market niches that may be underserved by traditional financial institutions.
Only financial institutions certified by the CDFI Fund can receive Financial Assistance awards through the CDFI
Program and the Native American CDFI Assistance (NACA) Program. Technical Assistance awards are available
through both programs to certified CDFIs and entities that propose to become certified.

CDFIs provide a unique and wide range of financial products and services that help their customers build wealth and
achieve the goal of participating in the ownership society. While the types of products made available are generally
similar to those provided by mainstream financial institutions (such as mortgage financing for low-income and first-
time homebuyers, small business lending, and lending for community facilities), CDFIs often lend to and make equity
investments in markets that may not be served by mainstream financial institutions. In addition, CDFIs may offer rates
and terms that are more flexible to low-income borrowers. CDFIs also provide services that help ensure that credit is
used effectively, such as technical assistance to small businesses, home buying and credit counseling to consumers.
CDFIs include depository institutions such as community development banks, credit unions, and non-depository
institutions such as loan funds and venture capital funds.

Certification of Community Development Financial Institutions and Community
Development Entities
CDFI certification is a designation conferred by the CDFI Fund. An organization must be a legal entity and meet the
following six statutory and regulatory criteria:

1.   Has a primary mission of promoting community development;
2.   Serves principally an investment area or targeted population;
3.   Is an insured depository institution, or makes loans or development investments as its predominant business activity;
4.   Provides development services (such as technical assistance or counseling) in conjunction with its financing activity;
5.   Maintains accountability to its target market; and
6.   Is a non-governmental entity and cannot be controlled by any governmental entities.

CDFI certification is a requirement for accessing a Financial Assistance award from the CDFI Fund through the CDFI
Program and the NACA Program, and certain benefits through the BEA Program. The term of CDFI certification is
three years, after which CDFIs must apply for recertification in order to maintain their initial certification. As of
September 30, 2010, there were 929 certified CDFIs. During FY 2010, 142 CDFIs were newly certified, a nearly
threefold increase from the previous fiscal year. Additionally, 56 certified CDFIs were recertified in FY 2010.

The significant increase in CDFI certification during FY 2010 was driven in part by the Community Development
Capital Initiative (CDCI), which was administered by the U.S. Department of the Treasury’s Office of Financial
Stability. Through the CDCI, the Department provided lower-cost capital to certified CDFI banks, thrifts, depository
institution holding companies and credit unions. A total of 84 certified and recertified CDFI banks, thrifts, depository
institution holding companies and credit unions from 26 states, the District of Columbia and Guam received $570
million through the CDCI Program.

A Community Development Entity (CDE) is a domestic corporation or partnership that is an intermediary vehicle for
the provision of loans, investments, or financial counseling in low-income communities through the NMTC Program.
CDEs must demonstrate a primary mission of serving low-income communities and low-income people, and must
                                                                                                                              5
demonstrate that they are accountable (through representation on a governing board or advisory board) to residents of
low-income communities. CDEs are certified as such by the CDFI Fund and are eligible to apply for allocation of tax
credit authority through the NMTC Program.

Many CDEs create multiple subsidiary CDEs to own specific assets or classes of assets, and thus the number of CDEs
grew to 4,558 as of September 30, 2010. Benefits of CDE certification include being able to: (1) apply to the CDFI
Fund to receive an allocation of NMTC authority to offer to investors in exchange for equity investments in the CDE
and/or its subsidiaries; or (2) receive loans or investments from other CDEs that have received a NMTC allocation.
CDEs must be certified in order to receive allocations of tax credit authority. The table below shows the total numbers
of certified CDFIs and CDEs through FY 2010.

           Annual Number of Certified
               CDFIs and CDEs

    End of FY         CDFIs             CDEs
      1997             190
      1998             262                -
      1999             334                -
      2000             415                -
      2001             468               31
      2002             625               541
      2003             694              1,184
      2004             728              1,585
      2005             752              1,954
      2006             762              2,294
      2007             778              2,680
      2008             808              3,434
      2009             798              3,938
      2010             929              4,558


CDEs are headquartered in 49 states, the District of Columbia, Puerto Rico, and the U.S. Virgin Islands.
CDFIs are headquartered in all 50 states, the District of Columbia, Guam, Puerto Rico, and the U.S. Virgin
Islands.

Community Development Financial Institutions Program Performance Goal: Build the capacity and coverage of
CDFIs to provide credit, capital, and related services to underserved markets.

Through the CDFI Program, the CDFI Fund provides Financial Assistance in the form of grants, loans, deposits and
equity investments to CDFIs, and Technical Assistance grants to CDFIs and entities that propose to become certified
CDFIs.

•    Financial Assistance (FA) awards are in the form of grants, loans, deposits and equity investments to CDFIs that
     have comprehensive business plans for creating community development impact.

•    Technical Assistance (TA) awards are in the form of grants to CDFIs and entities proposing to become CDFIs in
     order to build their capacity to advance community development and meet capital access needs in their target


                                                                                                                        6
    markets. TA awards can also be accessed by larger and more established CDFIs to support their continued
    development.

New Markets Tax Credit Program: Performance Goal: Attract private sector capital into low-income communities
through CDEs.

The NMTC Program spurs the investment of new private sector capital into low-income areas through CDEs, which in
turn use privately managed investment vehicles to make loans and equity investments in businesses and real estate
projects in low-income communities.

By making an equity investment in a CDE, individual and corporate investors can receive a tax credit against their
federal income taxes worth 39 percent of the value of the amount invested in the CDE over 7 years.

The NMTC Program was authorized under the Community Renewal Tax Relief Act of 2000. The statute included $15
billion in allocation authority for seven years. Under the Hurricane Katrina Gulf Opportunity (GO) Zone Act of 2005,
an additional $1 billion in allocation authority was directed to the rebuilding and renewal of the GO Zone. The NMTC
Program was reauthorized for one year, through the end of 2008, as part of H.R. 6111 the Tax Relief and Health Care
Act of 2006. A further provision allowed for an additional $3.5 billion in tax allocation authority under the program
through 2009. Included in this provision was a requirement that Treasury prescribe regulations to ensure that non-
metropolitan (rural) counties receive a proportional allocation of Qualified Equity Investments (QEIs).

Calendar year 2002 was the first year in which applications for NMTC authority were submitted to the CDFI Fund. As
of October 30, 2009, seven allocation rounds have been completed providing allocations of tax credit authority that
will support, in the aggregate, equity investments of $26 billion, including the $3 billion in allocation authority
authorized under the American Reinvestment and Recovery Act (Recovery Act).

Bank Enterprise Award Program: Performance Goal: Increase FDIC-insured institutions’ investments in
community development and economic revitalization in distressed communities.

The BEA Program recognizes the key role played by traditional financial institutions in community development
lending and investing. Through the BEA Program, the CDFI Fund provides monetary awards to regulated banks and
thrifts for increasing their investments and financial activities in economically distressed communities (those with high
poverty and unemployment) and/or investments in CDFIs. The size of the award is a percentage of the increase in
activities from one annual reporting period to the next.

Native Initiatives: Performance Goal: Build the capacity and coverage of CDFIs and other institutions to provide
credit, capital, and related services to Native Communities.

Through the Native Initiatives, the CDFI Fund assists entities in overcoming barriers that prevent access to credit,
capital, and financial services in Native American, Alaskan Native, and Native Hawaiian communities. The Native
Initiatives’ central component is the Native American CDFI Assistance (NACA) Program, which increases the number
and capacity of existing or new CDFIs serving Native Communities. In addition, the Native Initiatives provide
training to help strengthen and develop Native CDFIs.

Financial Education and Counseling Pilot Program: Performance Goal: Provide grants to Eligible Organizations
to enable them to provide a range of financial education and counseling services to prospective homebuyers.




                                                                                                                       7
The program goals of the FEC Pilot Program are to identify successful methods resulting in positive behavioral change
for financial empowerment, and to establish program models for organizations to carry out effective financial
education and counseling services to prospective homebuyers.

Capital Magnet Fund: Performance Goal: Provide grants to certified CDFIs and Nonprofit Organizations that must
be used to attract financing for and increase in (1) the development, preservation, rehabilitation, or purchase of
affordable housing and (2) economic development activities or community service facilities, which in conjunction with
affordable housing activities implement a concerted strategy to stabilize or revitalize a low-income area or
underserved rural area.

Through the CMF, in FY 2011 the CDFI Fund will provide $80 million in competitively awarded grants to 23 CDFIs
and qualified nonprofit housing organizations serving 38 states. CMF awards can be used to finance affordable
housing activities as well as related economic development activities and community service facilities. Awardees will
be able to utilize financing tools such as loan loss reserves, loan funds, risk-sharing loans, and loan guarantees to
produce eligible activities whose aggregate costs are at least ten times the size of the award amount.

Performance Measures
This Performance and Accountability Report includes a discussion of the performance measures the CDFI Fund
considers the most significant. For a discussion of all of the CDFI Fund's performance measures, see the applicable
appendix in the FY 2010 Performance and Accountability Report for the Department of the Treasury.

Allocation of CDFI Fund Funding

The CDFI Fund’s appropriations comprise program funds and administrative funds. Program funds are amounts that
are used for program awards (such as grants, loans, deposits, equity investments, and training contracts);
administrative funds are amounts used to cover the costs to administer all programs, including the NMTC Program.
As noted above, the Secretary has delegated authority to the CDFI Fund to allocate tax credit authority through the
NMTC Program. As NMTCs are not monetary awards, they are not reflected in the chart below. NMTC Program
administrative expenses are included in the administration costs below.

Sources of Funding
Congress appropriates funding annually to the CDFI Fund; each appropriation can be used over two fiscal years.
Appropriations include fiscal year budget authority, and any unobligated funds from the prior year may be carried
over. The annual appropriation amount includes borrowing authority to make loans.

                                                           Sources of CDFI Fund Funding
                                                                       (Amounts in Millions)

                                         FY 2010        FY 2009

Appropriations                              $260.2       $ 207.01
Prior Year Amounts Deobligated,
 Used to Fund Current Year
 Obligations                                    0.3          0.5
Carryover from Prior Year                       8.3         1.0
Borrowing Authority Used                        6.3         0 .9

Total Sources of Funds                       $275.1      $209.4

Note – The above amounts do not include credit subsidy re-estimates.
1
  /Includes Recovery Act funding


                                                                                                                      8
In FY 2010, the CDFI Fund allocated $260.2 million in appropriated funds as follows::

                                                 Funding Allocation
                                                   (Amounts in Millions)

                                 FY 2010   FY 2009

Amounts Funded
 CDFI Program                     $107.6      149.71
 BEA Program                        25.0       22.0
 Native Initiatives                 12.0       16.5 2
 Capital Magnet Fund                80.0
 Financial Education & Counseling
 Pilot Program                       1.0        2.03
 Financial Education & Counseling
 Pilot Program (Hawaii)              3.1
 Small Business Bond Guarantee      13.5
 New Markets Tax Credit
 Administration Costs                           4.24
 Administrative Costs               18.0       12.65

Total Amounts Funded              $260.2     $207.0
Less Amounts Not Obligated         104.1        0.0

Total Funding Used                $156.1     $207.0


1
  /It includes $90 million from ARRA funding and $59.7 million from regular appropriation
2
   /It includes $8 million from ARRA funding and $8.5 million from regular appropriation
3
  /Funds were obligated in FY 2010
4
  /It includes $67,000 from ARRA funding and $4.2 million from regular appropriation
5
  /It includes $1.9 million from ARRA funding



                       Percent of Amounts Funded in FY 2010

              Small Business                Administrative
              Bond Guarantee,                Costs, 6.9%                   CDFI Program,
                   5.2%                                                       41.4%




     Capital Magnet
      Fund, 30.7%



         Financial
         Education                                                          BEA Program,
        Hawaii, 1.2%                                                            9.6%
                            Financial      Native Initiatives,
                         Education, 0.4%         4.6%


                                                                                            9
ORGANIZATION OF THE CDFI FUND

The CDFI Fund’s organizational structure consists of the respective offices of the Director, Chief Operating Officer,
Manager for Legislative and External Affairs, Legal Counsel, Financial Manager, CDFI and Native Program Manager,
NMTC and BEA Program Manager, Certification, Compliance Monitoring & Evaluation Manager, Financial
Strategies and Research Manager, Training and Outreach Manager, Supervisory IT Specialist, and Capital Magnet
Fund Manager. The organization chart of the CDFI Fund is shown below.



                                        Community Development Financial Institutions Fund
                                                     Organizational Chart
                                                       September 2010

                                              Legislative & External Affairs            Director                  Legal Counsel
                                                        Manager                                              Reports to the Office of the
                                                                                                                 General Counsel



                                                                               Chief Operating Officer     Financial Manager
                                                                                                         Reports to the Office of
                                                                                                         Financial Management



 Training & Outreach   Financial Strategies               Community              New Markets Tax         Compliance Monitoring       Supervisory Information   Capital Magnet Fund
       Manager             & Research               Development Financial          Credit & Bank            & Evaluation                  Technology                 Manager
                            Manager                  Institutions & Native       Enterprise Award              Manager                      Manager
                                                       American CDFI             Program Manager
                                                           Asistance
                                                      Program Manager




                                                                                                                                                                                10
Program
Discussion
and Analysis




               11
Community Development Financial                              In addition to seeking certification to receive financial
Institutions Program                                         and technical assistance from the CDFI Fund,
                                                             organizations pursue CDFI certification in order to
Through the Community Development Financial                  leverage CDFI Funds from non-federal sources such as
Institutions (CDFI) Program, the CDFI Fund uses              banks, foundations, and state and local governments.
federal resources to invest in and build the capacity of
CDFIs to serve low-income people and communities             The certification of organizations as CDFIs has been a
lacking adequate access to affordable financial products     long-standing activity of the CDFI Fund. By the end
and services. The CDFI Program provides monetary             of FY 2010, the total certified CDFIs were 929 serving
awards for Financial Assistance (FA) and Technical           rural and urban areas in all states and the District of
Assistance (TA). CDFIs use FA awards to further goals        Columbia, Guam, Puerto Rico, and the Virgin Islands.
such as:

    •   Economic development (job creation, business
                                                             Breakdown of Types of Certified CDFIs
        development, and commercial real estate              Twenty-eight percent of certified CDFIs are
        development);                                        headquartered in the five most populous states (New
                                                             York, Texas, North Carolina, Florida, and California).
    •   Affordable housing (housing development and
        homeownership); and                                  CDFIs include banks, credit unions, loan funds, and
                                                             venture capital funds, with each providing a different
    •   Community development financial services             mix of products geared to reach specific customers, as
        (provision of basic banking services to              follows:
        underserved communities and financial literacy
        training).                                               •   Community development banks are for-profit
                                                                     corporations that provide capital to rebuild
In FY2010, the CDFI Program awarded $104.8 million                   economically distressed communities through
to CDFIs consisting of (1) $101.9 million to 147                     targeted lending and investment;
organizations, including 25 Small and Emerging CDFI
Assistance (SECA ) awards for $12.5 million, 122                 •   Community development credit unions are
Core awards for $89.4 million, and (2) nearly $2.9                   non-profit cooperatives owned by members
million in TA awards to 32 organizations.                            that promote ownership of assets and savings
                                                                     and provide affordable credit and retail
Certified CDFIs                                                      financial services to low-income people;

A certified CDFI is a legal entity that has been certified       •   Community development loan funds (usually
by the CDFI Fund as meeting all of the following                     non-profits) provide financing and
statutory and regulatory criteria:                                   development services to businesses,
                                                                     organizations and individuals in low-income
1. Has a primary mission of promoting community                      urban and rural areas and can be further
   development;                                                      categorized based on the type of client served:
2. Serves principally an investment area or targeted                 micro-enterprise, small business, housing and
   population;                                                       community service organizations; and
3. Is an insured depository institution, or makes loans
   or development investments as its predominant                 •   Community development venture capital
   business activity;                                                funds include both profit and non-profit
4. Provides development services (such as technical                  organizations that provide equity and debt-
   assistance or counseling) in conjunction with its                 with-equity features for businesses in
   financing activity;                                               distressed communities.
5. Maintains accountability to its target market; and
6. Is a non-governmental entity and cannot be
   controlled by any governmental entities.
                                                                                                                   12
CDFI Customers                                             depending on the type of non-federal matching funds
                                                           the applicant brings to the initiative. FA awards
CDFI customers include (among others):                     enable CDFIs to leverage private capital for affordable
                                                           financial products and services in economically
                                                           distressed markets. CDFIs respond to this demand
    •   Small business owners who provide
                                                           providing loans, investments, training, technical
        employment opportunities and needed services
                                                           assistance, and basic financial services such as checking
        to disadvantaged communities;
                                                           or savings accounts.
    •   Affordable housing developers who construct
        and rehabilitate homes in low-income               FY 2010 FA Awards
        communities;
                                                           In FY 2010, the CDFI Fund received applications from
    •   Community facilities used to provide child         322 organizations requesting over $460 million in FA
        care, health care, education and social services   awards, including 93 SECA applicants requesting over
        in underserved communities;                        $50 million and 229 Core applicants, seeking $410
                                                           million.
    •   Commercial real estate developers who
        finance the acquisition, construction or           The CDFI Fund awarded $101.9 million to 147
        rehabilitation of retail, office, industrial and   organizations in FY 2010, consisting of 25 SECA
        community facility space in low-income             awards for $12.5 million and 122 Core awards for $89.4
        communities; and                                   million.

    •   Individuals who are provided affordable                                      Table 1 – FY 2010 FA Awards
        banking services including checking and                                                Awards         Amount Awarded
        savings accounts, alternatives to predatory
                                                                               Core                 122              $89,417,538
        financial companies, and mortgages and other
                                                                               SECA                  25              $12,550,275
        kinds of loans.
                                                                               Totals               147             $101,967,813
Financial Assistance
                                                           The following graph shows the total amount of FA funds
The CDFI Program consists of two components,               requested and awarded since FY 2005. The CDFI
Financial Assistance and Technical Assistance (FA          Program has consistently received more applications
and TA). The FA component is by far the most               than it can fund. In FY 2010, the CDFI Fund capped
subscribed and consists of two categories: Category 1 –    awards at $750,000 in an attempt to meet the heavy
Small and Emerging CDFI Assistance (SECA); and             demand. By capping award amounts, the CDFI Fund
Category 2 – Core. Through the CDFI Program, the           was able to make more awards.
CDFI Fund invests in CDFIs that provide financing and
related services to communities and populations lacking             CDFI Financial Assistance: Amounts
access to credit, capital, and financial services.                  Requested and Awarded ($millions)

Applicants applying to the CDFI Program must
                                                             $300
demonstrate they have the financial and managerial           $250
capacity to impact the communities they serve.               $200                                              $ 270     $ 259
                                                                                                                                 $ 460
Applicants must be able to: 1) provide affordable and        $150     $ 160
                                                                                                     $ 200
                                                                                $ 147      $ 138
                                                             $100
appropriate financial products and services; 2) be a          $50   $ 33      $ 25      $ 26       $ 52      $ 53      $ 90   $ 10 2
viable financial institution; 3) be able to use CDFI           $0
Fund awards effectively; and 4) have the ability to                 2005      2006    2007      2008      2009 ARRA 2010
                                                                                                               2009
leverage their awards with non-federal funding.
                                                                                           Fiscal Year
The CDFI Program makes FA awards in the form of                            Amount Aw arded            Amount Requested
equity investments, loans, deposits, or grants,
                                                                                                                                         13
Technical Assistance                                         Impact System (CIIS). Each awardee has 180 days from
                                                             its fiscal year end to report through CIIS. This time
Through the Technical Assistance (TA) component of           allows the awardee to complete its annual audit and
the CDFI Program, the CDFI Fund provides grants to           enables the CDFI Fund to verify reported information
build the capacity of both start-up and existing CDFIs.      against the audit.
TA grant funds can be used for items such as staff
salaries, benefits, staff training, professional services,   The FY2010 performance information provided herein
supplies and equipment. Applicants often request             pertains to each awardee’s performance results for
funds to analyze their target markets, develop lending       program year 2009. It should also be noted that the lag
policies and procedures, or to build staff lending           in performance reporting reflects the time it takes to
capacity.                                                    deploy funds and make investments for which actual and
                                                             projected results can be estimated. The delay in
More established CDFIs also use TA grants to build           performance reporting reflects the length of time from
their capacity to provide new products, serve current        notice of award to award disbursement, the time it takes
target markets in new ways, or enhance the efficiency        for an awardee to deploy the funds, and the additional
of their operations with upgraded computer hardware          time it takes to compute and report awardee impact
and software.                                                information to the CDFI Fund’s CIIS reporting system.
                                                             The performance results for program year 2009 are
                                                             summarized in the table below and are based on
FY 2010 TA Awards                                            information entered into CIIS by reporting CDFI
                                                             Program awardees.
In FY 2010, the CDFI Fund received 86 applications
requesting more than $8.4 million in TA-only grants.
Thirty-two organizations received awards totaling nearly
                                                                           Performance of CDFI Program
$2.9 million. Subsequent to the award announcement,
                                                                            Awardees During FY 2010 *
three organizations declined their TA awards and a total
of $294,086 was deobligated. The following graph             1. # of Full Time Jobs Created or Maintained (78)** 80,796
shows the total amount of Technical Assistance awards        2. # of Businesses Financed (91)**                        12,457
since 2003.
                                                             3. # of Commercial Real Estate Properties
                                                                Financed (50) **                                        1,615
              Total Am ount of TA Aw ards                    4. # of Affordable Housing Units Financed (27)**           5,986
                 (Am ounts in Millions)
                                                             5. # of Homebuyers Who Obtain Financing (50) **            2,126
$6           $4.9                                            6. # of Accounts Opened to the Unbanked (9)**             3,079
$5
$4                                                 $2.6      7. Dollars, in millions, Leveraged with Private
                    $2.1                    $2.4
$3                         $1.9 $1.5 $2.0                       Investments**                                          $1,989
$2
      $0.3                                                   8. # of Individuals Provided with Financial
$1
$0                                                              Literacy and Other Training (133)**                   139,751

                                                             9. Individual Development Accounts (IDAs)
                       Fiscal Year                              Provided by CDFIs (53)**                                2,125
                                                             10. Dollar amount, in millions, of IDAs (53)**             $1.79


CDFI Program Performance                                     * FY 2010 PAR Data based on program activities reported in 2009.

CDFI Program awardees report their annual                    ** Numbers in parentheses are the number of CDFI Program awardees
performance to the CDFI Fund through the CDFI Fund’s           reporting on this particular measure.
web-based reporting system, the Community Investment




                                                                                                                           14
New Markets Tax Credit Program                                              2010 NMTC Allocation Round

The New Markets Tax Credit (NMTC) Program                                   In FY 2010, the CDFI Fund began the application
stimulates capital investment in low-income                                 review process in anticipation of additional allocation
communities nationwide. The tax credit permits                              authority being made available by Congress. As of the
taxpayers to receive a credit against federal income taxes                  date of this report, Congress had not yet approved the
for making Qualified Equity Investments (QEIs) in                           Administration’s request for additional $5 billion of
designated Community Development Entities (CDEs).                           additional allocation authority for both calendar years
Substantially all of the qualified equity investment must                   2010 and 2011. The number of applications for the
in turn be used by the CDE to provide investments in                        2010 round is consistent with those in 2009 (250
low-income communities.                                                     applications); however, the amount of allocation
                                                                            authority requested has increased by $1 billion over
The CDFI Fund is responsible for awarding tax credit                        the prior year to $23.5 billion.
allocations to CDEs. It does so through a competitive
award process. This process ensures that the most                           NMTC Evaluation Research
qualified organizations receive first consideration for
this limited resource.                                                      In 2007, the CDFI Fund engaged the Urban Institute to
                                                                            conduct a multi-year comprehensive evaluation of
The credit provided to the investor totals 39 percent of                    NMTC Program outcomes. The research design for the
the amount of the investment made in a CDE and is                           evaluation includes: (a) a review of relevant economic
claimed over a seven-year credit allowance period. In                       development, performance measurement, and tax credit
each of the first three years, the investor receives a                      literature; (b) informal discussions with key NMTC
credit equal to five percent of the total amount paid for                   stakeholders; (c) an analysis of existing NMTC
the stock or capital interest at the time of purchase.                      administrative data; (d) development of a typology of
For the final four years, the value of the credit is six                    NMTC projects; (e) an examination of secondary public
percent annually. Investors may not redeem their                            and private data, and: (f) a random sample of case study
investments prior to the conclusion of the seven-year                       data collection through phone and on-line surveys. The
period.                                                                     Urban Institute has produced a series of reports for the
                                                                            CDFI Fund, detailing the methodology in preparation for
To qualify as a CDE, an entity must be a domestic                           the primary survey that will take place in FY 2011. In
corporation or partnership that: 1) has a mission of                        FY 2010, the CDFI Fund released “Evaluating
serving, or providing investment capital for, low-                          Community and Economic Development Programs: A
income communities or low-income persons; 2)                                Literature Review to Inform Evaluation of the New
maintains accountability to residents of low-income                         Market Tax Credit Program.” This study examined how
communities through their representation on a                               other community development programs were evaluated
governing board of or advisory board to the entity; and                     in the past so as to provide the best possible NMTC
3) has been certified as a CDE by the CDFI Fund. As                         evaluation.
of September 30, 2010, there were 4,558 organizations
certified as CDEs by the CDFI Fund, compared to                             The CDFI Fund’s Financial Strategies and Research
3,938 as of one year earlier.                                               office made important improvements to the CIIS data
                                                                            reporting system in FY 2010 to improve the quality of
                                                                            data being reported by CDEs.
        Num ber of Certified Com m unity Developm ent Entities
                              At Year End
                                                                            2009 NMTC Allocation Round
     5,000                                                          4,558
                                                               3,938
     4,000                                             3,434
                                                                            In FY 2010, the CDFI Fund announced that 99
     3,000                                         2,680
                                      1,953
                                           2,294                            applicants were awarded $5.0 billion in NMTC
     2,000                    1,639
                      1,194                                                 allocation authority, including the additional $1.5
                558
     1,000                                                                  billion provided through the Recovery Act. The
         -                                                                  award round was discussed in detail in the FY 2009
                                                                            PAR report.
               06
               02

               03

               04

               05



               07

               08

               09

               10
             20

             20

             20

             20

             20

             20

             20

             20

             20




                                                                                                                                  15
                                Fiscal Year
NMTC Activities to Date                                      Qualified Active Low Income Community Businesses
                                                             (QALICBs) in FY 2010, and a total of $15.5 billion of
Since calendar year 2002, the CDFI Fund has                  loans and investments in QALICBs since the program’s
allocated $26.0 billion in tax credit authority to CDEs      inception. In FY 2010, 64 percent of the dollars
to raise equity against which NMTCs can be claimed,          invested were invested in “real estate QALICBs” (i.e.,
including $3.0 billion of special allocation authority       businesses that develop or lease real property for use by
made available through the Recovery Act.                     others). The remaining 36 percent of the dollars were
                                                             invested in “non-real estate QALICBs” (i.e., operating
                                                             businesses) in low-income communities. Finally, in FY
To date, the CDFI Fund has completed seven
                                                             2010, allocatees also reported making over $168.0
allocation rounds and made 495 awards, distributing
                                                             million in direct investments into other CDEs, and
all $26.0 billion in authority.
                                                             providing $12.0 million in financial counseling and
                                                             other services to 7,139 businesses in low-income
Demand for the tax credits has been high since               communities. Adding together all Qualified Low-
program inception through the current 2010 round,            Income Community Investments (QLICIs) yields a
where 2,074 applications have been submitted                 grand total of $15.8 billion of cumulative investments
requesting a total allocation authority of $202.6            reported in CIIS since 2003. The data reported in FY
billion. Through the first seven allocation rounds,          2010 represents the FY 2009 allocatees’ activities.
only 27 percent of applicants were selected to receive
awards. The average tax credit allocation award was
approximately $52.5 million.

Allocation agreements have been executed with each
of the 495 allocatees from the first seven rounds. As
of September 30, 2010, allocatees had reported raising
Qualified Equity Investments (QEIs) totaling over
$18.7 billion. This figure represents almost 72 percent
of the $26.0 billion in allocation authority issued to
CDEs so far. QEI investment has increased each year
except in 2009. Through the first three quarters of the
calendar year 2010 over $3.1 billion in QEIs have
been raised, surpassing the $2.8 billion raised for all of
2009.

Allocatees report QEI and Qualified Low-Income
Community Investment (QLICI) activity to the CDFI
Fund through the Allocation Tracking System (ATS)
and Community Investment Impact System (CIIS).
Allocatees that have raised QEIs are required to report
these investments within 60 days via ATS. Within six
months of the end of the CDE fiscal year end, CDEs
must complete an annual Institution Level Report
(ILR) via CIIS. Allocatees that have made QLICIs are
also required to submit an annual Transaction Level
Report (TLR) in CIIS. An allocatee’s ILR, TLR, and
audited financial statements are due 180 days after the
end of its fiscal year.

All results in the chart below represent the allocatees’
CIIS data reported for fiscal year 2010 (program year
2009). As shown in the table below, allocatees reported
making $3.5 billion of loans and investments in

                                                                                                                   16
                                           Performance of NMTC Allocatees
                                                                                                       FY 2003 - FY 2010
                        Type of QLICI                                  FY 2010 Performance
                                                                                                     Cumulative Performance*
QALICB: Real Estate
   Loans and investments supporting real estate development                 $2.253 billion                  $9.973 billion
   and rehabilitation in low-income communities.
                                                                       468 loans/investments           2,175 loans/investments

QALICB: Non-Real Estate
   Loans and investments supporting businesses operating in                 $1.267 billion                  $5.506 billion
   low-income communities.
                                                                       422 loans/investments           2,079 loans/investments

CDE
   Loans and investment in other CDEs.                                     $168.0 million                   $351.4 million

                                                                        43 loans/investments            182 loans/investments

FCOS
      Investment in Financial Counseling and Other Services                    $12.0 million                     $35.9 million
      (FCOS).
      Number of businesses receiving FCOS.                               7,139 businesses served          22,025 businesses served
Jobs Created/Maintained
      Jobs at Reporting Period End                                                 19,579                           54,024
      Projected Construction Jobs                                                  38,461                           161,111
Square Feet of Commercial Real Estate
      Manufacturing                                                            1.507 million                     8.453 million
      Office                                                                   9.996 million                    35.516 million
      Retail                                                                   4.054 million                    31.207 million
* Cumulative performance is based on data available as of September, 2010. Each year, allocatees are permitted to update data
reported in previous fiscal years to correct errors or to provide newly available information. As a result, the sum of the FY 2003
through FY 2009 annual performance figures reported by the CDFI Fund in this and previous PARs may not equal the cumulative
figures in this chart. Additionally, as the CDFI Fund has revised measurements in consultation with the GAO, cumulative
statistics through FY 2010 may differ from those for earlier years.




                                                                                                                               17
Bank Enterprise Award Program                                as conduits for banks to better serve highly distressed
                                                             neighborhoods.
Through the Bank Enterprise Award (BEA) Program,
the CDFI Fund recognizes the key role played by              Eligibility
insured depository institutions in community
development lending and investing. The program               All FDIC-insured depository institutions are eligible to
provides incentives for FDIC-insured banks and thrifts       apply for a BEA Program award. The BEA Program
to invest in CDFIs and to increase their lending and         rewards actual increases in the dollar volume of
financial services in economically distressed                Qualified Activities from a Baseline Period to a later
communities. Providing monetary awards for                   Assessment Period. Qualified Activities for the BEA
community reinvestment leverages the CDFI Fund’s             Program are divided into three priority areas:
dollars and puts more capital to work in distressed
communities throughout the nation. The BEA Program           1. CDFI-Related Activities: Equity investments
is highly targeted to areas with larger populations: in         (grants, stock purchases, purchases of partnership
general, approximately 4,000 Census Tracts qualify as           interests or limited liability company membership
distressed communities under the program.                       interests); equity-like loans; and CDFI support
                                                                (loans, deposits or technical assistance) to certified
BEA Program awards are based on the increase in the             CDFIs (referred to as CDFI Partners).
amount of Qualified Activities from a Baseline Period to
a later Assessment Period (the corresponding time in the     2. Distressed Community Financing Activities:
following year). Qualified Activities consist of financial      Loans or investments for affordable home
assistance provided to certified CDFIs, loans made by           mortgages, affordable housing development,
financial institutions in distressed communities (for           education, home improvement, small businesses,
example, affordable housing loans, small business loans,        and commercial real estate development in
real estate development loans), and financial services          economically distressed communities.
provided in distressed communities (such as access to
automated teller machines and opening of savings             3. Service Activities: Deposits, financial services
accounts).                                                      (such as check-cashing, money orders, or certified
                                                                checks), electronic transfer accounts (ETAs),
Promoting CDFI Investments through                              individual development accounts (IDAs), or
the BEA Program                                                 community services provided to low- to moderate-
                                                                income individuals or the institutions serving
The BEA Program prioritizes two main types of bank              them.
activities. The first priority is to increase banks'
financial support of CDFIs in order to build CDFI self-      FY 2010 BEA Program Awards
sufficiency and capacity (referred to as CDFI-Related
Activities). The second priority is to build the
                                                             In FY 2010, the CDFI Fund received 76 eligible
capacity of FDIC-insured depository institutions to
                                                             applications requesting a total of more than $94
expand their community development lending and
                                                             million, compared to 58 applications requesting a total
investments in severely underserved areas (referred to
                                                             of approximately $57 million in FY 2009. The CDFI
as Distressed Community Financing Activities and
                                                             Fund selected 69 FDIC-insured institutions to receive
Service Activities).
                                                             approximately $25 million in awards. FY 2010
                                                             applicants are headquartered in 20 states and the
The CDFI Fund awards applicants in the CDFI
                                                             District of Columbia, compared to the 24 states and
Related priority before making awards to applicants in
                                                             the District of Columbia represented in the prior year.
the Distressed Community Financing Activities
priority and Service Activities priority. The prospect
                                                             In the FY 2010 funding round (based on the 2009
of a BEA Program award encourages banks to achieve
                                                             Assessment Period), awardees provided $373.9
this first priority by providing low-cost capital and
                                                             million in qualified loans or investments in distressed
operating support to CDFIs, which has helped to
                                                             communities, $53.9 million in qualified loans, deposits
create and sustain a network of CDFIs. CDFIs serve
                                                             and technical assistance to CDFIs, and $233.3 million
                                                                                                                  18
in qualified financial services in distressed                  as well as to strengthen the operational capacity of
communities.                                                   existing Native CDFIs primarily serving Native
                                                               Communities.
FY 2010 BEA Community Impact
                                                               The Native Initiatives are based on six objectives:
FY 2010 BEA Program awardees increased their
qualified community development activities by $343.4           1. Expanding training opportunities in community
million over the prior year:                                      development finance for Native Communities;
                                                               2. Providing technical assistance to overcome
•   $276.2 million increase in loans and investments              barriers to creating and sustaining Native CDFIs;
    in distressed communities;                                 3. Making technical and financial assistance awards
•   $53.4 million increase in loans, deposits, and                to meet the needs of existing or proposed Native
    technical assistance to CDFIs; and                            CDFIs;
                                                               4. Encouraging mainstream financial institutions to
•   $13.8 million increase in the provision of financial
                                                                  increase their financial products and services in
    services in distressed communities.
                                                                  Native Communities;
                                                               5. Supporting financial education activities in Native
The trend of investments in distressed communities and
                                                                  Communities; and
investments in CDFIs by BEA awardees is shown in the
Distribution of BEA Program Awards by Category
                                                               6. Facilitating networking and in-depth training
chart.                                                            forums in community development finance.

          Distribution of BEA Program Awards By                These objectives are achieved through two principle
               Category (Amounts in Millions)                  strategies. The first strategy is to provide funding
                                                        $0.4
                                                               through the Native American CDFI Assistance
       $25.0                                   $0.2            (NACA) Program, which increases the number and
                                                      $3.9
       $20.0
                                             $2.7              capacity of existing or new Native CDFIs. The second
                                   $5.6                        strategy is to provide training to help create new
       $15.0
                $4.2
                                                               Native CDFIs or strengthen the operational capacity of
       $10.0            $1.5                 $19.4    $20.5
                                  $14.4                        existing ones.
        $5.0    $7.6     $9.7

        $0.0                                                   NACA Program FY 2010
               2006    2007       2008    2009        2010
                               Fiscal Year
                                                               Through the NACA Program, the CDFI Fund provides
           S ervice Activities
                                                               two types of funding: 1) Financial Assistance (FA)
           CDFI Rel ated Activities
                                                               awards which are only available to certified CDFIs;
           Distressed Community Financing Services
                                                               and 2) Technical Assistance (TA) grants, which are
                                                               available to certified CDFIs, Emerging Native CDFIs,
                                                               and Sponsoring Entities. Unique to the NACA
Native Initiatives                                             Program, Sponsoring Entities create and support
                                                               fledgling Native organizations as they move toward
                                                               CDFI certification.
In November 2001, the CDFI Fund published the
Report on the Native American Lending Study, which             FA awards are primarily used for financing capital.
formed the basis for creating the Native Initiatives.          TA grants are generally used to acquire products or
The study evaluated access to credit, capital and              services including computer technology; staff training;
financial services in Native American, Alaskan Native          professional services, such as market analysis; and
and Native Hawaiian communities and identified                 support for other general capacity-building activities.
barriers to providing such financing. To address these         NACA awardees use their awards to increase their
barriers, the Native Initiatives increase opportunities to     capacity to serve their Target Market and/or to
access credit, capital, and financial services by              create/become certified CDFIs.
creating or expanding Native CDFIs primarily serving
Native Communities, helping to create Native CDFIs             In FY 2010, the CDFI Fund received 61 NACA
                                                                                                                      19
applications requesting a total of $23.7 million for both   involves three types of training: 1) Native
FA and TA funding. The CDFI Fund awarded 45                 Communities Financing Initiatives; 2); Native
organizations a total of $10.3 million for both FA and      Financial Skills and Enterprise Initiatives; and 3)
TA funding in FY 2010.                                      Native Individual Development Account Initiative.
                                                            The Native Communities Financing Initiatives are
FY 2010 NACA FA Awards                                      accompanied by technical assistance, providing up to
                                                            six days of on-site assistance to participants.
 In FY 2010, the CDFI Fund awarded 10 organizations
awards for both FA and TA with approximately $4.7           The CDFI Fund has contracted with two organizations
million in FA, and $1.3 million in TA. In order to          to provide a series of workshops and technical
meet the demand for funding, the CDFI Fund capped           assistance to participants in the three training
the FA awards in FY 2010 at $500,000. As a result,          initiatives.
the CDFI Fund was able to make more FA awards.
The CDFI Fund assumes that the demand will remain           Financial Education and
high as an increasing number of Native CDFIs put into
practice the CDFI Fund’s training and continue to
                                                            Counseling Pilot Program
build their lending programs.
                                                            In FY 2009, the CDFI Fund was appropriated $2
                                                            million to administer a Financial Education and
Technical Assistance Grants                                 Counseling (FEC) Pilot Program. The CDFI Fund
                                                            released the Notice of Funds Availability (NOFA) for
Through the NACA Program, the CDFI Fund provides            this program on October 13, 2009, and made award
TA grants, which are available to certified CDFIs,          determinations in the third quarter of FY 2010. Five
Emerging Native CDFIs, and Sponsoring Entities.             eligible organizations were awarded $400,000 each to
Unique to the NACA Program, Sponsoring Entities             provide a range of Financial Education and
create and support fledgling Native organizations as        Counseling Services to Prospective Homebuyers, with
they move toward certification.                             the goals of: (i) increasing the financial knowledge
                                                            and decision-making capabilities of prospective
TA grants help awardees build their capacity to             homebuyers; (ii) assisting prospective homebuyers to
provide financial services and products. Awardees can       develop monthly budgets, build personal savings,
use TA grants to: 1) acquire products or services such      finance or plan major purchases, reduce debt, improve
as technology or staff and board training; 2) engage        financial stability, and set and reach financial goals;
consulting services to undertake activities like a          (iii) helping prospective homebuyers to improve credit
market analysis or development of lending policies          scores by understanding the relationship between
and procedures; 3) pay for staff time to conduct            credit histories and credit scores; and (iv) educating
capacity-building activities like website development;      prospective homebuyers about the options available to
and 4) support on-going operational activities such as      build savings for short- and long-term goals. FY 2009
staff salary, rent and utilities.                           awardees are located in California, Colorado, Georgia,
                                                            New Hampshire and North Carolina. Reporting on
FY 2010 NACA TA Awards                                      program impact will begin in FY 2011.

In FY 2010, 35 organizations received TA awards             In FY 2010, the CDFI Fund was appropriated $4.15
totaling nearly $4.3 million.                               million for the FEC Pilot Program, of which $3.15
                                                            million was specifically appropriated for an award to
Training Initiatives                                        an organization located in the State of Hawaii. The
                                                            CDFI Fund released the NOFA for this program on
                                                            May 28, 2010, and intends to make award
Through the Native Initiatives, the CDFI Fund               determinations in the first quarter of FY 2011.
engages contractors to provide training and technical
assistance to existing and emerging Native CDFIs.
The Expanding Native Opportunities component


                                                                                                                20
Capital Magnet Fund                                          million available for the FY 2010 funding round. The
                                                             deadline for applications was April 15, 2010. The 230
                                                             applications received included nonprofit housing
In its inaugural FY 2010 Capital Magnet Fund (CMF)
                                                             corporations and certified CDFIs. The CDFI Fund met
funding round, the CDFI Fund will provide $80
                                                             the application-award cycle time of six months with an
million in competitively awarded grants to 23 CDFIs
                                                             award announcement date of October 14, 2010.
and qualified nonprofit housing organizations serving
38 states. CMF awards can be used to finance
affordable housing activities as well as related             Small Business Bond Guarantee
economic development activities and community                Program
service facilities. Awardees will be able to utilize
financing tools such as loan loss reserves, loan funds,      On September 27, 2010, H.R. 5297, Small Business
risk-sharing loans, and loan guarantees to produce           Jobs Act of 2010, was signed into law by the President.
eligible activities whose aggregate costs are at least ten   Section 1703 of the legislation includes $13,500,000 to
times the size of the award amount.                          remain available until September 30, 2012 for the
                                                             costs of administering guarantees for bonds and notes
The CDFI Fund received a total of 230 applications for       as authorized under section 114A of the Riegle
the FY 2010 CMF funding round. Applications were             Community Development and Regulatory
received from organizations identifying proposed             Improvement Act of 1994, as added by section 1134.
affordable housing projects in 49 states, the District of    Currently the CDFI Fund is developing the program
Columbia and Puerto Rico, requesting a total of more         implementation plan.
than $1 billion in grants that would leverage an
estimated $23.38 billion in eligible projects. The
CDFI Fund published a NOFA in the Federal Register
on March 4, 2010, announcing that it was making $80




                                                                                                                21
                       STATUS OF FINANCIAL MANAGEMENT
This section includes the assurance statement required under the Federal Managers’ Financial Integrity Act, a
summary of the results of the FY 2010 financial statement audit, a summary of the financial management
initiatives of the CDFI Fund during FY 2010, and a discussion of the CDFI Fund’s financial position and results
of operations during the past fiscal year.

Management Assurances
The Community Development Financial Institutions (CDFI) Fund is responsible for establishing and maintaining
effective internal control over financial reporting and has made a conscious effort to meet the internal control
requirements of the Federal Managers’ Financial Integrity Act (FMFIA), the Federal Financial Management
Improvement Act (FFMIA), Office of Management and Budget (OMB) Circular A-123, and the Reports
Consolidation Act of 2000. The organizations under my purview are operating in accordance with the
procedures and standards prescribed by the Comptroller General and OMB guidelines.

The systems of management control for the CDFI Fund offices under my purview are designed to ensure that:

(a) programs achieve their intended results;
(b) resources are used consistent with overall mission;
(c) programs and resources are free from waste, fraud, and mismanagement;
(d) laws and regulations are followed;
(e) controls are sufficient to minimize any improper or erroneous payments;
(f) performance information is reliable;
(g) system security is in substantial compliance with all relevant requirements;
(h) continuity of operations planning in critical areas is sufficient to reduce risk to reasonable
     levels; and
(i) financial management systems are in compliance with federal financial systems standards,
     i.e., FMFIA Section 4 and FFMIA.

For all CDFI Fund responsibilities under my supervision, we provide herein unqualified assurance that the above
listed management control objectives, taken as a whole were achieved by our office during FY 2010.
Specifically, this assurance is provided relative to Sections 2 and 4 of the FMFIA.

Such assurances are based on CDFI Fund management knowledge and are based on a review of all CDFI Fund
activities under my supervision.



                                                Donna J. Gambrell
                                                    Director




                                                                                                             22
Description of the CDFI Fund’s Financial Management System
The CDFI Fund contracts for accounting services under a franchise agreement with the Bureau of the Public
Debt’s Administrative Resource Center (ARC) in Parkersburg, West Virginia. While the ARC maintains the
accounting system relating to the CDFI Fund’s transactions, the CDFI Fund is responsible for generation of all
source documents and the accuracy of all accounting information.

The CDFI Fund’s financial management system includes the disbursement transactions maintained by ARC in
the accounting system, as well as records maintained and procedures performed by the CDFI Fund’s financial
management staff in the Office of Financial Management. The CDFI Fund’s resource manager and the Treasury
Office of Financial Management (OFM) are responsible for the administrative control of its funds, budget
formulation and execution, and review and analysis of financial information.

Results of FY 2010 Financial Statement Audit
The FY 2010 audit of the CDFI Fund’s financial statements resulted in an unqualified opinion with the following
deficiency: Improvements needed in accounting for investments. The CDFI Fund Management concurred with
this deficiency. The Auditors identified no material weaknesses.

FY 2010 Financial Management Initiatives
In FY 2010, financial management focus was on continuing to implement the information technology initiatives
identified in FY 2009.

Community Investment Impact System (CIIS)
CIIS is a Web-based system designed to collect an Institution Level Report (ILR) and Transaction Level Report
(TLR) from CDFIs and CDEs. The CIIS data collected from CDFIs include the organization’s profile, financial
position, portfolio, community impacts, development services, other products and services, and compliance
measures. The CIIS data collected from CDEs include the organization’s profile, QEI distribution, portfolio,
loan purchases, and financial counseling and other services.

Cumulatively through FY 2010, CIIS was used by 536 CDFIs and 208 CDEs to report institutional level data for
2010 activity (with 24 organizations reporting in both categories). Through FY 2010, a cumulative total of 378
organizations submitted the transactional level details on more than 371,000 distinct portfolios of loans and
equity investments for 2009 activity. This is a 40 percent increase in the total number of transactions reported
from the previous year. There were nearly 105,000 transactions cumulative through FY 2010.

In FY 2010, the CDFI Fund used the CIIS data to analyze the characteristics of CDFIs (including their loan and
investment portfolios, capital under management, operating revenues, and overall financial strength) and to
assess the impact CDFIs are having in the communities they serve. The third round of this analysis is
forthcoming in December 2010 in a document entitled Three-year trend analysis of CIIS CDFI report data: FY
2006-2008. FY 2010 marked the third time that the CDFI Fund made the CIIS data available to the public
(within the parameters of all applicable Federal information protection, privacy and confidentiality laws). The
CDFI Fund provided public-use CIIS data and financial support to twelve independent research teams as part of
its CDFI Research Initiative.

Much of the performance information in the CDFI Program section of the preceding Program Discussion and
Analysis section of this document was provided through an analysis of CIIS data.

                                                                                                             23
Migration to Grants.gov for Paperless Processing of Applications
The Federal Financial Assistance Management Improvement Act (FFAMIA) requires all federal grant making
agencies to migrate 100 percent of their electronic program applications to the Grants.gov system administered
by the Department of Health and Human Services. In compliance with the FFAMIA, CDFI Fund ensured that all
grants applications were processed electronically through Grants.gov.

On March 9, 2009, the Director of the Office of Management and Budget (OMB) issued memorandum M-09-14,
titled “Recovery Act Implementation – Improving Grants.gov and Other Critical Systems’” instructing all
Federal grant-making organizations to immediately identify alternative methods (to Grants.gov) for accepting
grant applications during the Recovery Act’s expected peak period to reduce demand on Grants.gov’s limited
resources. The CDFI Fund utilized its existing Information Systems application intake capabilities to meet this
“temporary Grants.gov waiver” requirement, which expired in April 2010. Thereafter, CDFI Fund has utilized
the Grants.gov system for all grants application intake process subsequent to the expiration of the above
temporary waiver, and intends to continue working with Grants.gov for its future awards.

Migration to a Grants Management Line of Business for Internal Application Processing
The FFAMIA and the President’s Management Agenda require that all federal grant making agencies migrate
their electronic grant processing systems to one of three federally selected Centers of Excellence (CoE). This
initiative is known as the “Grants Management Line of Business” (GMLoB).

In compliance with FFAMIA and OMB’s eGov and GMLoB initiatives, the CDFI Fund explored the suitability
of the three grants management Centers of Excellence (CoE) Consortia Lead solutions for replacing its Grants
Management Information System (GMIS). The detailed fit-gap study performed by a Consortia Lead
(HHS/ACF) identified “Significant Gaps” between the CoE’s capabilities and CDFI Fund’s legislatively
mandated (12 U.S.C. 4701 et seq.) requirements. The result of the studies demonstrated that none of the three
consortia leads are able to provide a near-term and cost effective solution to the CDFI Fund. In addition to the
fit-gap study, the CDFI Fund performed an extensive 10-year Cost Benefit and Sensitivity Analysis comparing
best-value alternatives for modernizing its GMIS. The alternatives considered were: (a) Status Quo; (b) GMLoB
Consortia; and (c) Commercial Off-the-Shelf (COTS).

These analyses demonstrated to the OMB that the GMLoB consortia solution providers are not designed to
support the full grants management lifecycle requirements of the CDFI Fund. Furthermore, it was determined
that COTS alternatives provide a better fit to the CDFI Fund’s business processes, can be implemented faster,
cost significantly less, and provide higher return-on-investment than either the GMLoB or the Status Quo
options. Consequently, in July 2010, the OMB granted the CDFI Fund a GMLoB waiver and authorized the
CDFI Fund to pursue a suitable commercial option for modernization of its GMIS. The CDFI Fund is currently
in the process of developing the request for proposals (RFP) for this initiative and expects to complete full
implementation by FY 2013.

Federal Funding Accountability and Transparency Act
The Federal Funding Accountability and Transparency Act of 2006 (FFATA) and its 2008 amendments require
that all federal grant making agencies report on their grant activities on a publicly viewable website,
USASpending.gov. The CDFI Fund will submit FY 2010 data directly to USASpending.gov. This creates a new
obligation for awardees under the CDFI Fund’s grant programs to maintain active accounts in the Central
Contractor Registration System, to identify their locations, the places where most of their activities are
concentrated, provide information about any first-tier subawards and about the compensation of the five most
highly paid people within the organizations (subject to certain thresholds). In order to comply with this
requirement, the CDFI Fund will include the standard award terms as stipulated by FFATA in future assistance
agreements and continue to monitor the data quality of the information provided to the USASpending.gov
                                                                                                                 24
through the FAADS+ data system. In addition, the CDFI Fund plans to develop complementary guidance and
highlight FFATA reporting requirements during post-award web-seminars for all of the grant programs at the
CDFI Fund to include the CDFI Program, the Native American CDFI Assistance Program, the Financial
Education and Counseling Pilot Program, the Capital Magnet Fund, and other programs that Congress may
authorize and appropriate for the CDFI Fund to administer.

Management Responsibilities
CDFI Fund management is responsible for the fair presentation of information contained in the principal
financial statements in conformity with accounting principles generally accepted in the United States of America.
Management is also responsible for the fair presentation of the CDFI Fund’s performance measures in
accordance with the Office of Management and Budget requirements. The quality of the CDFI Fund’s internal
control structure rests with management, as does the responsibility for identification of and compliance with
applicable laws and regulations.

Limitations of the Financial Statements
The financial statements report the financial position and results of operations of the CDFI Fund for the fiscal
years ending on September 30, 2010 and 2009, pursuant to the requirements of 31 U.S.C. 3515(b). While the
statements have been prepared from the books and records of the CDFI Fund in conformity with accounting
principles generally accepted in the United States of America, the statements are in addition to the financial
reports used to monitor and control budgetary resources which are prepared from the same books and records.
The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity, and that the payment of all liabilities other than for contracts can be abrogated by the sovereign
entity.

Analysis of Financial Position and Results of Operations

                         Summarized Financial Data
                             (Amounts in Millions)
                                                       Increase /
                                       FY 2010 FY 2009 (Decrease)
Assets                                  $271.9 $166.1     $105.8
Liabilities                              $74.8  $49.7       $25.1
Net Position                            $197.1 $116.4       $80.7
Revenue and Financing Sources           $171.8 $197.9      ($26.1)
Expenses                                $178.1 $200.4     ($22.3)
Shortage of Revenue and Financing
(Net Loss)                               ($6.3)      ($2.5)   ($3.8)




                                                                                                                 25
                                   Allocation of Fund Assests
                                       September 30, 2010
                                      (Amounts in Millions)
                         Investment in
                        Awardees, Net,
                                                   Other, $1.7
                             $22.3




          Loans Receivable,
             Net, $44.3
                                                                       Fund Balance
                                                                       With Treasury,
                                                                           $203.7


   Allocation of Fund Assets at 9/30/10    Fund Balance With Treasury             Loans Receivable, Net

   Investment in Awardees, Net             Other




Assets
Assets increased by $105.8 million during FY 2010, consisting primarily of an increase in the Fund Balance with
Treasury which includes appropriated and borrowed funds available to pay liabilities and to finance authorized
award and purchase commitments.

Fund Balance with Treasury
The Fund Balance with Treasury reflected a $120.8 million change from the prior year, due to differences in the
timing of when appropriation revenue is received versus when expenses are paid. During FY 2010, the CDFI
Fund received an additional $80 million for the Capital Magnet Fund and $13.5 million for the administration of
guarantees of bonds and notes authorized under Section 11A of the Riegle Community Development and
Regulatory Improvement Act of 1994. The remaining increase of $27.3 million was attributed to increases in
annual appropriation, carryover funds from previous years and borrowed funds available to pay liabilities and to
finance authorized award and purchase commitments.

Loans Receivable
Loans receivable are increased when loan awards (under the CDFI and NACA programs) are disbursed by the
CDFI Fund and decreased for loan repayments and loan write-offs. During FY 2010, net loans decreased by $7.1
million, resulting, in part, from loan repayments of $4.7 million and an increase in the allowance for bad debts of
$2.0 million. Due to the difficult economic conditions, the CDFI Fund modified loan agreements with some of
the CDFI Fund awardees resulting in an increase in the allowance for bad debts. During FY 2010, the CDFI
Fund had write-offs of $0.4 million.




                                                                                                               26
Investments
The CDFI Fund currently holds five types of investments with net balances as follows:

    •   Non-voting equity securities - $15.4 million
    •   Convertible subordinated debt - $0.3 million
    •   Limited partnerships - $3.0 million
    •   Secondary Capital - $3.4 million
    •   Certificates of Deposit - $0.15 million

The primary source of financial data used for the majority of assessments is the most recent audited financial
statements of the investees. These assessments determine whether any other–than–temporary impairments
should be recognized.

Liabilities
The increase in liabilities during the year of $25.1 million consisted primarily of an increase in awards payable of
$24 million and an increase in debt of $1.1 million.

Awards Payable
Awards payable consists of undisbursed BEA awards of $25 million (recorded as a liability at the time of award) and
CDFI Program FA awards of $7 million. Awards payable increased by $24 million in FY 2010 due to
announcement of FY 2010 BEA awards in September 2010.

Debt
During FY 2010, the CDFI Fund borrowed $5.9 million due to a downward subsidy reestimate and $0.4 million to
meet annual interest payments due to the Treasury Department, at interest rates ranging partly from 1.85% to 6.36%,
depending on maturity dates or risk categories. The CDFI Fund borrowing was partly offset by the repayments of
amounts borrowed from Treasury totaling $5.2 million to fund loans to awardees. Principal repayments collected
from awardee loans during the year are used to repay the Treasury borrowings, and therefore amounts collected and
repaid to Treasury each year will vary from year to year, as they are a function of awardee loan terms.

Net Position
Net position increased during the year by $80.7 million. Net position will change during the year as a result of
the following: 1) the difference between appropriations received (net of appropriations cancelled, rescinded and
adjusted for credit subsidy reestimates) and appropriations used; 2) any adjustment of the CDFI Fund’s subsidy
reestimate, and 3) the excess (shortage) of revenue and financing sources over (under) expenses. During FY
2010, appropriations received, appropriations for subsidy reestimate (net of amounts cancelled, rescinded and
downward subsidy reestimate) were $256 million, and appropriated capital used was $169 million resulting in an
increase in net position of $87 million. However, this increase was slightly reduced by the $6.3 million loss
recorded by the CDFI Fund in FY 2010.




                                                                                                                 27
Revenue and Financing Sources
The primary source of revenue and financing sources for the CDFI Fund is the annual appropriation used to fund
expenses (“appropriated capital used” as reflected in the statement of operations). Pursuant to Federal grant
accounting requirements, the amount of appropriated funds recognized as revenue is, with certain adjustments,
equal to the amount of operating expenses for the year. Operating expenses for the year excluding those paid by
others were $169 million.

                           Revenue and Financing Sources
                                    (Amounts in Millions)

                                                              $197.9
         $200                                                          $171.8

         $150

         $100       $71.9                            $72.2
                               $59.8     $59.0

          $50

           $0
                    2005     2006       2007        2008      2009     2010
                                         Fiscal Year


Expenses
The change in the CDFI Fund’s operating expenses, excluding administrative expenses paid by others during FY
2010 and FY 2009, consisted of the following:

          Comparison of Operating Expenses
   Excluding Administrative Expenses Paid by Others
             Fiscal Years 2010 and 2009
               (Amounts in Millions)
                               FY 2010     FY 2009 Difference
 Award Expenses                $147.2      $183.8      ($36.6)
 Administrative Expenses       $19.4        $16.6      $2.8
 Bad Debt Expense               $2.4        ($5.9)     $8.3
 Total Operating Expenses      $169.0      $194.5      ($25.5)



Award Expenses
Award expenses during the year decreased $36.6 million due to a decrease in the CDFI Program appropriation.
In FY 2009, the CDFI Program was appropriated an additional $90 million to support to implement the efforts
under the American Recovery and Reinvestment Act of 2009, which resulted in a higher level of award expenses
for FY 2009.




                                                                                                            28
                                  Award Expenses
                                   (Amounts in Millions)
                                                              $21.7
             $200.0
                                                                         $24.3
             $150.0

             $100.0                               $18.6    $162.1
                           $10.3        $9.6                           $122.9
               $50.0
                          $33.3       $34.2      $35.9
                $0.0
                        2006         2007       2008      2009        2010

                                            Fiscal Year
                           CDFI Program           BEA Program

Administrative Expenses
Administrative expenses increased by $2.8 million during FY 2010. During FY 2010, the CDFI Fund
experienced an increase in the number of applications processed, an increase in the number of awards made, and
an increase in the number of awards under active portfolio management. These programmatic increases had a
direct impact on the CDFI Fund’s operations, resulting in higher administrative expenses primarily in contract
services and personnel.

Bad Debt Expense
Bad debt expense is a function of the amount of loans receivable at year-end and the loan modifications made
during the year. As of June 2009, the CDFI Fund implemented an analysis process that included a loan-by-loan
review using key financial ratios from the awardees’ most recent audited financial statements. This analysis
results in both specific and general estimates of allowance necessary for FY 2009 and FY 2010 rather than the
25% blanket allowance used in prior years. Bad debt expense increased during FY 2010 by $8.3 million, some
CDFI Fund borrowers requested modification to their loan agreements in order to meet their financial
obligations. The difference during FY 2010 is the result of an adjustment to the allowance for bad debts of $5.9
million recorded in FY 2009 and $2.4 million recorded as bad debt expense during FY 2010. The economic
conditions facing the United States had an impact on CDFI Fund borrowers making it difficult for them to
achieve the expected profits to meet their obligations with the CDFI Fund.

Net Loss
As stated above, the amount of appropriated capital used (the largest component of the CDFI Fund’s revenue) is,
with certain adjustments, equal to the amount of operating expenses for the year. Accordingly, the shortage of
revenue and other financing sources over expenses (net loss) will consist of the amount by which expenses not
covered by budgetary resources exceeds revenue and financial sources other than appropriated capital used.

For FY 2010, expenses not covered by budgetary resources totaled $2.1 million, consisting of interest expense on
Treasury borrowings. Interest and dividend income totaled $1.5 million.

In FY 2010, the CDFI Fund recorded an investment impairment loss of $6.0 million and no loss was recorded in
equity in earnings.

                                                                                                               29
D




INDEPENDENT AUDITOR’S
REPORT
THIS PAGE INTENTIONALLY LEFT BLANK
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                                           Independent Auditors’ Report


Inspector General
U.S. Department of the Treasury

Director
Community Development Financial Institutions Fund

We have audited the accompanying statements of financial position of the U.S. Department of the
Treasury’s Community Development Financial Institutions Fund (CDFI Fund) as of September 30, 2010
and 2009 and the related statements of operations and changes in net position, and cash flows (hereinafter
referred to as “financial statements”) for the years then ended. These financial statements are the
responsibility of the CDFI Fund’s management. Our responsibility is to express an opinion on these
financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the CDFI Fund’s
internal control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Community Development Financial Institutions Fund as of September 30, 2010
and 2009, and the results of its operations and cash flows for the years then ended in conformity with U.S.
generally accepted accounting principles.

The information in the Community Development Financial Institutions Fund Overview, Program
Discussion and Analysis, and Status of Financial Management sections is not a required part of the
financial statements. We have applied certain limited procedures, which consisted principally of inquiries
of management regarding the methods of measurement and presentation of this information. However, we
did not audit this information and, accordingly, we express no opinion on it.

The information in the appendices is presented for purposes of additional analysis and are not required as
part of the financial statements. This information has not been subjected to auditing procedures and,
accordingly, we express no opinion on it.



                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.
Community Development Financial Institutions Fund
November 10, 2010
Page 2 of 2




In accordance with Government Auditing Standards, we have also issued our reports dated November 10,
2010, on our consideration of the CDFI Fund’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. Those reports are an integral part of an audit performed
in accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




November 10, 2010
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General
U.S. Department of the Treasury

Director
Community Development Financial Institutions Fund

We have audited the statements of financial position of the U.S. Department of the Treasury’s Community
Development Financial Institutions Fund (CDFI Fund) as of September 30, 2010 and 2009 and the related
statements of operations and changes in net position, and cash flows (hereinafter referred to as “financial
statements”) for the years then ended, and have issued our report thereon dated November 10, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the CDFI Fund is responsible for establishing and maintaining effective internal
control. In planning and performing our fiscal year 2010 audit, we considered the CDFI Fund’s internal
control over financial reporting by obtaining an understanding of the design effectiveness of the CDFI
Fund’s internal control, determining whether internal controls had been placed in operation, assessing
control risk, and performing tests of controls as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements, but not for the purpose of expressing an
opinion on the effectiveness of the CDFI Fund’s internal control over financial reporting. Accordingly, we
do not express an opinion on the effectiveness of the CDFI Fund’s internal control over financial reporting.
We did not test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2010 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above. However, we identified certain deficiencies in
internal control over financial reporting described in Exhibit I that we consider to be a significant


                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.
Community Development Financial Institutions Fund
November 10, 2010
Page 2 of 2




deficiency in internal control over financial reporting. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance.

The CDFI Fund’s response to the finding identified in our audit is presented in Exhibit II. We did not audit
the CDFI Fund’s response and, accordingly, we express no opinion on it.

Exhibit III presents the status of prior year significant deficiencies.

We noted certain additional matters that we have reported to management of the CDFI Fund in a separate
letter dated November 10, 2010.

This report is intended solely for the information and use of the addressees, OMB, the U.S. Government
Accountability Office, and the U.S. Congress and is not intended to be and should not be used by anyone
other than these specified parties.




November 10, 2010
                                                                                                    Exhibit I

                         Community Development Financial Institutions Fund

                              Significant Deficiencies and Recommendations


Improvements are needed in accounting for investments

During our fiscal year (FY) 2010 testing of investments, we noted certain deficiencies in how the
Community Development Financial Institutions Fund (CDFI Fund) accounts for investments. Specifically,
we observed a re-occurrence of the following prior year deficiency:

•   The supporting documentation related to the valuation analysis for certain investments could be
    improved. For instance, an analysis for one investment indicated that under one valuation method the
    carrying values exceeded the CDFI Fund’s estimated fair value by approximately $800,000 and under a
    second estimation method, the capitalized cash flow method; there was no indicated excess of carrying
    value over fair value. While management’s analyses did acknowledge certain qualitative and
    quantitative factors in support of the carried value (e.g., “reasonably steady cash flows” and trends over
    the last 5-8 years of significant swings in equity and net income), the analyses did not adequately
    extend the documentation to key aspects of the CDFI Fund’s methodology and an understanding of the
    impact of other CDFI programmatic activities (e.g., significant grants) that may contribute to the
    assessed viability of the investee (i.e., the financial health of the investee was dependent on CDFI Fund
    grant awards). Management revised its carrying value in this instance.

FASB ASC section 320-10-35-21 states, “An investment is impaired if the fair value of the investment is
less than its cost.”

The U.S. Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government (GAO/AIMD-00-21.3.1) states: “Transactions should be promptly recorded to maintain their
relevance and value to management in controlling operations and making decisions. This applies to the
entire process or life cycle of a transaction or event from the initiation and authorization through its final
classification in summary records. In addition, control activities help to ensure that all transactions are
completely and accurately recorded.” It also states, “Internal control and all transactions and other
significant events need to be clearly documented, and the documentation should be readily available for
examination.”

The CDFI Fund policies and procedures do not currently consider the impact of other CDFI Fund
programmatic activities that may affect the valuation of the investment.

Due to deficiencies noted above, certain investments of the CDFI Fund were not being accounted for in
compliance with U.S. generally accepted accounting principles. In addition, the CDFI Fund’s investments
were overstated by $1,225,000.

Recommendation:

We recommend that management of the CDFI Fund further refine its policies and procedures to ensure that
investments are appropriately analyzed, specifically to consider the impact of intra-fund programmatic
activity that may bear on the estimate of value.
                                                                                                   Exhibit II

                         Community Development Financial Institutions Fund

                Management’s Response to Significant Deficiencies and Recommendations


Improvements are needed in accounting for investments

Management’s Response:

The CDFI Fund concurs with the recommendation to include intra-fund programmatic activity in its
analysis of investments. The CDFI Fund will document and implement a procedure to distribute, on a
monthly basis beginning January 31, 2011, a cumulative list of awards made to investees. OFM will
incorporate this programmatic information into its investment analysis beginning June 30, 2011 and revise
the documented investment procedures accordingly.

The CDFI Fund applies both FASB ASC section 320-10-35-21, "An investment is impaired if the fair
value of the investment is less than its cost", and ASC 320-10-35-18, "For individual securities classified as
either available for sale or held to maturity, an entity shall determine whether a decline in fair value below
the amortized cost basis is other than temporary", in its accounting for investments. In the specific instance
described in the "Condition", the CDFI Fund did not yet deem the impairment other than temporary thus
the carrying value of the investment was not initially adjusted for impairment. Though the term "other-
than-temporary" is subjective, the CDFI Fund revised the carrying value of this adjustment as it was
deemed conservative and was recommended by KPMG.
                                                                                        Exhibit III

                      Community Development Financial Institutions Fund

                                     Status of Prior Year Findings


          Fiscal Year 2009 Finding                  Deficiency Type       Fiscal Year 2010 Status

1) Improvements are needed in the                Significant Deficiency           Closed
   accounting process for estimating loan
   loss reserves

2) Improvements are needed in the                Significant Deficiency   Repeated as Significant
   accounting for investments                                                     Deficiency

3) Improvements are needed in the                Significant Deficiency           Closed
   preparation and review of the financial
   statements
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of the Treasury

Director
Community Development Financial Institutions Fund

We have audited the statements of financial position of the U.S. Department of the Treasury’s Community
Development Financial Institutions Fund (CDFI Fund) as of September 30, 2010 and 2009, and the related
statements of operations and changes in net position, and cash flows (hereinafter referred to as “financial
statements”) for the years then ended, and have issued our report thereon dated November 10, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the CDFI Fund is responsible for complying with laws, regulations, contracts, and
grant agreements applicable to the CDFI Fund. As part of obtaining reasonable assurance about whether
the CDFI Fund’s financial statements are free of material misstatement, we performed tests of the CDFI
Fund’s compliance with certain provisions of laws, regulations, contracts, and grant agreements,
noncompliance with which could have a direct and material effect on the determination of the financial
statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-
04. We limited our tests of compliance to the provisions described in the preceding sentence, and we did
not test compliance with all laws, regulations, contracts, and grant agreements applicable to the CDFI
Fund. However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance discussed in the preceding paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addressees, OMB, the U.S. Government
Accountability Office, and the U.S. Congress and is not intended to be and should not be used by anyone
other than these specified parties.




November 10, 2010



                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.
FINANCIAL STATEMENTS
and NOTES




                       40
THIS PAGE INTENTIONALLY LEFT BLANK
                                     Community Development Financial Institutions Fund
                                             Statements of Financial Position
                                           As of September 30, 2010 and 2009

                                                                             2010           2009
                                      Assets

Fund Balance with Treasury (Note 4)                                  $        203,706,636     82,943,254
Advances and prepayments                                                         245,855           930,210
Loans receivable, net of allowance for bad
  debts of $11,278,017 in 2010 and $9,282,169 in 2009 (Note 5)                 44,271,564     51,375,835
Investments, amortized cost (Note 6)                                            3,849,089      4,505,000
Investments, cost method (Note 8)                                              15,388,420     21,274,820
Investments, equity method (Note 9)                                             3,018,116      3,341,762
Interest and other receivable                                                    443,960           379,340
Internal-use software, net of accumulated amortization of
  $3,940,101 in 2010 and $3,492,293 in 2009                                      600,251       1,048,058
Internal-use software in development                                             414,272           352,517
Total assets                                                         $        271,938,163    166,150,796




                        Liabilities and Net Position

Accounts payable                                                     $           230,013           334,113
Awards payable                                                                 31,893,723      7,909,214
Accrued payroll                                                                  443,985           381,966
Accrued annual leave                                                             512,024           473,422
Debt (Note 10)                                                                 41,739,350     40,638,011
Total liabilities                                                             74,819,095      49,736,726


Commitments (Note 11)


Unexpended appropriations (Note 12)                                           178,568,702     91,546,608
Cumulative results of operations                                               18,550,366     24,867,462
Total net position                                                           197,119,068     116,414,070


Total liabilities and net position                                   $        271,938,163    166,150,796




The accompanying notes are an integral part of these statements

                                                                                                     41
                            Community Development Financial Institutions Fund
                            Statements of Operations and Changes in Net Position
                                 Years Ended September 30, 2010 and 2009



                                                                      2010           2009

Revenue and financing sources:
Appropriations                                                    $    169,030,773   195,711,732
Imputed other income - expenses paid by others (Note 13)                   939,110       732,293
Interest, non-federal                                                    1,227,300     1,235,417
Interest, federal                                                          178,197        91,000
Dividends                                                                  147,551       205,072
Equity in income of associates, net                                        315,050
                                                                                               -
Total revenue and financing sources                               $    171,837,981   197,975,514


Expenses:
CDFI grants                                                            122,881,601   162,141,364
BEA grants                                                              24,345,852     21,682,117
Administrative expense (Note 14)                                        19,446,152     16,632,431
Increase in (reversal of) bad debt expense                               2,391,106    (5,901,595)
Administrative expenses paid by others (Note 13)                           939,110        732,293
Total operating expenses                                          $    170,003,821   195,286,610


Interest expense, federal                                                2,135,638     2,072,015
Impairment losses                                                        6,015,618     2,519,103
Equity in loss of associates, net                                                        550,000
                                                                                 -
Total expenses                                                    $    178,155,077   200,427,728

Net loss                                                          $    (6,317,096)   (2,452,214)

Cumulative results of operations, beginning of year               $    24,867,462    27,319,676
Net loss                                                               (6,317,096)   (2,452,214)

Cumulative results of operations, end of year                     $     18,550,366    24,867,462



The accompanying notes are an integral part of these statements




                                                                                               42
                               Community Development Financial Institutions Fund
                                          Statements of Cash Flows
                                  Years Ended September 30, 2010 and 2009


                                                                                      2010          2009
Cash flows from operating activities:
Net loss                                                                          $   (6,317,096)    (2,452,214)
Adjustments to reconcile net loss to net cash provided by (used in) operations:
Impairment losses                                                                       6,015,618      2,519,103
Equity in loss/(gain) of associates                                                     (315,050)        550,000
Amortization expense                                                                      447,807        607,914
Accretion of discount                                                                    (73,307)       (44,103)
Increase in (reversal of) bad debt expense                                              2,391,106    (5,901,595)
Change in assets and liabilities:
Decrease (increase) in advances and prepayments                                           684,355      (180,938)
Increase in interest and other receivable                                                (64,620)       (40,318)
Decrease in accounts payable and accrued payroll                                         (42,081)      (138,327)
Increase (decrease) in awards payable                                                  23,984,509   (12,890,981)
Increase in accrued annual leave                                                           38,602         95,698

Net cash provided by (used in) operating activities                               $    26,749,843   (17,875,761)

Cash flows from investing activities:
Proceeds from disposition of investments                                                1,238,696        675,000
Investments in awardees                                                                         -      (100,000)
Acquisition of internal-use software                                                     (61,755)       (89,565)
Loans disbursed                                                                                 -    (3,556,284)
Collection of loan principal                                                            4,713,165      3,918,268

Net cash provided by investing activities                                         $     5,890,106       847,419

Cash flows from financing activities:
Increase in unexpended appropriations, net                                            87,022,094     10,326,281
Borrowings from Treasury                                                                6,309,129      2,814,895
Loan payments to Treasury                                                             (5,207,790)    (3,579,746)

Net cash provided by financing activities                                         $    88,123,433     9,561,430

Net change in Fund balance with Treasury                                              120,763,382    (7,466,912)

Fund balance with Treasury, beginning of year                                          82,943,254    90,410,166

Fund balance with Treasury, end of year                                           $   203,706,636   82,943,254



The accompanying notes are an integral part of these statements



                                                                                                            43
Notes to the Financial Statements
September 30, 2010 and 2009



(1)   Description of Reporting Entity
      The Community Development Financial Institutions Fund (CDFI Fund) was created as a bipartisan
      initiative in the Riegle Community Development and Regulatory Improvement Act of 1994 (Public Law
      No. 103-325). The CDFI Fund was placed in the Department of the Treasury and began operations in
      July 1995.

      The CDFI Fund operates various programs aimed at expanding the availability of credit, investment
      capital, and financial and other services in distressed urban, rural, and Native American communities. The
      CDFI Fund is intended to help create a national network of financial institutions dedicated to community
      development that leverages private resources (financial and human) to address community development
      needs.

      The major programs operated by the CDFI Fund are the Community Development Financial Institutions
      Program (consisting of a Financial Assistance and Technical Assistance Component), the New Markets
      Tax Credit Program, the Bank Enterprise Awards Program, Native Initiatives and the Capital Magnet
      Fund.

      The Community Development Financial Institutions (CDFI) Program provides financial and technical
      assistance awards to certified community development financial institutions (CDFIs) which in turn provide
      services to create community development impact in underserved markets. Financial assistance awards
      take the form of grants, direct loans, and equity investments. Technical Assistance grants provide
      assistance to start-up and early-stage CDFIs and entities planning to become CDFIs.

      The CDFI Fund implemented the New Markets Tax Credit (NMTC) Program during fiscal year 2002.
      Under this program, the CDFI Fund provides an allocation of tax credits to Community Development
      Entities (CDEs), which use these credits to attract private sector investment. Proceeds from these
      investments are used for community development purposes. Unlike the CDFI Fund’s grant programs, the
      allocation of tax credits to CDEs has no effect on the financial statements of the CDFI Fund.

      The Bank Enterprise Awards (BEA) Program provides incentives to insured depository institutions (banks
      and thrifts) to invest in CDFIs and to increase their lending and financial services in distressed
      communities. Program participants are selected based on projected achievements. The awards are
      disbursed only after the activities have been implemented successfully, to ensure that only completed
      activities are recognized and that the CDFI Fund’s limited dollars are effectively leveraged with private
      capital.

      Through Native Initiatives, the CDFI Fund provides grants to help create CDFI’s and to build the capacity
      of existing Native CDFIs that serve primarily Native American, Alaska Native, and Native Hawaiian
      communities.

      Through the Capital Magnet Fund (CMF), the CDFI Fund provides competitively awarded grants to CDFIs
      and qualified nonprofit housing organizations. CMF awards can be used to finance affordable housing
      activities as well as related economic development activities and community service facilities. Awardees
      will be able to utilize financing tools such as loan loss reserves, loan funds, risk-sharing loans, and loan
                                                                                                              44
       guarantees to produce eligible activities whose aggregate costs are at least ten times the size of the award
       amount.

 (2)   The American Recovery and Reinvestment Act of 2009
       The American Recovery and Reinvestment Act of 2009 (“the Recovery Act”) appropriated an additional
       $100 million to the CDFI Fund for the fiscal year (FY) 2009 funding round to make awards through the
       CDFI Program and the Native American CDFI Assistance (NACA) Program. Of this amount, $90 million
       was made available to Community Development Financial Institutions (CDFIs) under the Financial
       Assistance (FA) Component of the CDFI Program, $8 million was made available under the NACA
       Program, and $2 million was used to fund administrative costs incurred by the CDFI Fund.

       For all CDFI Program awards made under the FY 2009 funding round, regardless of the source of funds
       (i.e., the Recovery Act vs. standard annual appropriations), the Recovery Act waives: (1) the requirement
       that the awardee obtain matching funds from non-Federal sources; and (2) the general requirement that no
       single awardee (or its affiliates) can receive more than $5 million in assistance from the CDFI Fund over a
       3-year period. This allows the CDFI Fund to make all of its CDFI Program awards for the FY 2009 round
       in the form of grants, while in prior award rounds the form of the award was based on the form of the
       matching funds.

       The Recovery Act also authorizes the CDFI Fund to allocate an additional $3 billion (unaudited) in tax
       credit authority to qualified Community Development Entities (CDEs) under the NMTC Program, as
       follows: $1.5 billion (unaudited) to CDEs that applied for allocation authority under the 2008 NMTC
       allocation round; and $1.5 billion (unaudited) to CDEs that apply for allocation authority under the 2009
       NMTC allocation round. This is not an amount subject to accounting and reporting by the CDFI Fund and
       is for informational purposes only.

(3)    Summary of Significant Accounting Policies

       (a)   Basis of Presentation
             The American Institute of Certified Public Accountants (AICPA) has designated the Federal
             Accounting Standards Advisory Board (FASAB) as the standards-setting body for financial
             statements of federal governmental entities, with respect to the establishment of accounting
             principles generally accepted in the United States of America. SFFAS 34, issued by FASAB,
             provides authoritative guidance allowing federal entities to prepare financial statements in
             conformance with accounting and reporting principles issued by the Financial Accounting Standards
             Board (FASB). Accordingly, the CDFI Fund financial statements are presented in accordance with
             accounting standards published by FASB.

         (d) Use of Estimates

             The preparation of financial statements in conformity with accounting principles generally accepted
             in the United States of America requires management to make estimates and assumptions that affect
             the reported amounts of assets and liabilities and disclosure of contingent assets and liabilities at the
             date of the financial statements and the reported amounts of revenues and expenses during the
             reporting period. Actual results could differ from these estimates. Significant items subject to such
             estimates include allowance for bad debts and the identification and valuation of investment
             impairments.



                                                                                                                   45
(c)   Fund Balance with Treasury
      The CDFI Fund does not maintain cash in commercial bank accounts. The U.S. Department of the
      Treasury (Treasury Department) processes cash receipts and disbursements. Fund Balance with
      Treasury is composed primarily of appropriated and borrowed funds (financing and program
      accounts) that are available to pay liabilities and finance authorized award and purchase
      commitments.

(d)   Loans Receivable, net of Allowance for Bad Debts
      Loans receivable relate to direct loans made to certain CDFI Program awardees and are recorded at
      face value. Direct and incremental loan costs are deemed to be de minimis. Any interest is
      recognized over the life of the loan, when earned. Amounts collected on loans receivable are
      included in cash flows from investing activities in the statements of cash flows. During FY 2010, the
      CDFI Fund received requests from awardees requesting an extension of their maturity dates. The
      requests were processed in collaboration with the Office of Management and Budget and the
      Department of the Treasury Office of Financial Management. While the loan extensions are being
      processed, awardees do not make principal payments. The CDFI Fund continues to collect interest
      on all loans that are under modification, past maturity or when ultimate collectability is in doubt.

      The allowance for bad debts is the CDFI Fund’s best estimate of the amount of credit losses in the
      CDFI Fund’s existing loans. The allowance includes both specific and non-specific loan analysis.
      The non-specific portion of the allowance considers historical write-off trends and current market
      conditions. The specific portion is determined on an individual basis upon review of any loan that
      has a past due balance or no payment required until maturity. A loan is considered impaired
      pursuant to FASB ASC-310-10-35. A loan is impaired if it is probable that the CDFI Fund will not
      collect all principal and interest contractually due. The impairment is measured based on the present
      value of the expected future cash flows discounted at the loan’s effective interest rate. Impairment
      losses are charged against the allowance and increases in the allowance are charged to bad debt
      expense. Loans are written off against the allowance when all possible means of collection have
      been exhausted and the potential for recovery is considered remote. The CDFI Fund accrues and
      collects interest income on the impaired loans that have been submitted for loan modifications.

(e)   Interest and Other Receivable
      Interest is accrued on the outstanding loans receivable principal balances and investments based on
      stated rates of interest.

(f)   Investments
      The CDFI Fund provides assistance to certain for-profit CDFI program awardees by purchasing
      various investments described below. The CDFI Fund is restricted from owning more than 50% of
      the equity of awardees and from controlling their operations. Held-to-maturity debt securities are
      those debt securities in which the CDFI Fund has the ability and intent to hold the security until
      maturity.
          • Non-voting Equity Securities: These investments are carried at original cost subject to
              other-than-temporary impairments.

          •   Secondary Capital Interests: These interests are held-to-maturity and carried at amortized
              cost, net of applicable discounts, subject to other-than-temporary impairments.

          •   Convertible Subordinated Debt: This instrument exhibits sufficient characteristics of an
              equity security as the CDFI Fund is entitled to any dividends in the non-voting common
                                                                                                         46
               stock as if the CDFI Fund had converted the debentures into such stock prior to the
               declaration of the dividend. This investment is held-to-maturity and carried at amortized
               cost, net of applicable discounts, subject to other-than-temporary impairments.

          •    Limited Partnership Interests: These interests are carried in accordance with the equity
               method of accounting by recognizing the pro-rata share of investee profit/loss through the
               statement of operations. Investments are further subject to assessment of any other-than-
               temporary impairments as discussed below.

          •    Certificates of Deposits: These investments are held-to-maturity and recognized at cost as
               they are fully insured.

      Held-to-maturity debt securities are recorded at amortized cost, adjusted for the amortization of
      premiums or discounts. Premiums and discounts are amortized over the life of any related held-to-
      maturity security as an adjustment to yield using the straight-line method.
      For non-voting equity securities and limited partnerships, a decline in the fair value of any security
      below cost that is deemed to be other-than-temporary results in an impairment to reduce the carrying
      amount to fair value. The impairment is charged to earnings and a new cost basis for the security is
      established. To determine if an impairment is other-than-temporary, the CDFI Fund considers
      whether (1) it has the ability and intent to hold the investment until a market price recovery and (2)
      evidence indicating the cost of the investment is recoverable outweighs evidence to the contrary.
      Evidence considered in this assessment includes the reasons for the impairment, the severity and
      duration of the impairment, changes in value subsequent to year-end, forecasted performance of the
      investee, and the general market condition in the industry in which the investee operates.

(g)   Internal-Use Software
      Internal-use software represents the completed phases of various software placed in service
      pertaining to 1) processing applications – this software automates the award application submission
      process; 2) geocoding – web-based software that geocodes addresses, census tracts and counties, and
      enables applicants to determine the funding eligibility of census tracts and counties under CDFI’s
      various programs; and 3) the Community Investment Impact System (CIIS) – a web-based data
      collection system for CDFI’s and Community Development Entities.
      The software is amortized using the straight-line method over the estimated useful life of seven
      years. Amortization expense for the years ended September 30, 2010 and 2009 was $447,807 and
      $607,914, respectively.

(h)   Internal-Use Software in Development
      Internal-use software encompasses software design, development, and testing of projects adding
      significant new functionality and long-term benefits. Costs for developing internal-use software are
      accumulated in internal-use software in development until a project is placed into service, and testing
      and final acceptance are successfully completed. Once completed the costs are transferred to
      internal-use software.

(i)   Leases
      At the beginning of each fiscal year the CDFI Fund obtains the estimated annual amount for all
      operating leases. The CDFI Fund then establishes an obligation to be recorded within the financial
      system for the full amount of the estimate. The CDFI Fund approves each monthly IPAC transaction
      and submits the approved form to BPD for processing on a monthly basis. Rent payments are
      recognized on a straight-line basis over the term of the lease.
                                                                                                            47
(j)   Awards Payable
      CDFI Program grant expense is recognized and awards payable are recorded when the fund is made
      aware, in writing, that the awardee has met the conditions required for payment and the CDFI Fund
      approves a grant disbursement to be made. BEA Program grant expense is recognized and awards
      payable are recorded when the CDFI Fund approves the BEA award to be made (i.e. at the time the
      funds are obligated).

(k)   Retirement Plans
      CDFI Fund employees participate in the Civil Service Retirement System (CSRS) or the Federal
      Employees’ Retirement System (FERS). The FERS was established by the enactment of Public Law
      99-335. Pursuant to this law, FERS and Social Security automatically cover most employees hired
      after December 31, 1983.

      Employees hired prior to January 1, 1984, were provided an opportunity to join either FERS and
      Social Security or remain in CSRS. The amount of cost recognized by the CDFI Fund for these
      contributions for September 30, 2010 and September 30, 2009 was $658,144 and $547,513
      respectively.

      For all employees, a Thrift Savings Plan (TSP) account is automatically established, and the
      employee can have up to a predetermined maximum amount withheld from their base salary, which
      is deposited into their TSP account. For FERS employees only, the CDFI Fund makes matching
      contributions ranging from 1% to 4% for employees who contribute to their TSP account (there is no
      matching contribution for CSRS employees). The amount of cost recognized by the CDFI Fund for
      these contributions for September 30, 2010 and September 30, 2009 was $243,225 and $205,543
      respectively.

      In addition, CDFI Fund employees participating in CSRS have 7% of their base salary withheld
      which is contributed into a Retirement Fund. The CDFI Fund contributes the same amount into the
      Retirement Fund. The amount of cost recognized by the CDFI Fund for these contributions for
      September 30, 2010 and September 30, 2009 was $50,767 and $48,493 respectively.

      FERS employees and CSRS reinstatement employees are eligible to participate in the Social Security
      program for retirement. In these instances, the CDFI Fund remits the employer’s share of the
      required contribution.

(l)   Annual, Sick, and Other Leave
      Annual leave and compensatory leave is accrued as a liability when earned by the employee, and the
      accrual is reduced as leave is taken. The balance in this accrued liability account is computed using
      current pay rates. Sick leave and other types of non-vested leave are expensed as the leave is taken.

(m)   Debt
      Debt represents borrowings payable to the Treasury Department that were made to fund direct loans
      made by the CDFI Program. Principal repayments to the Treasury Department are required to be
      made based on the collections of loans receivable and are due September 30 of each year of maturity.

(n)   Contingencies
      Liabilities for loss contingencies arising from claims, assessments, litigation, fines, penalties and
      other sources are recorded when it is probable that a liability has been incurred and the amount of the
                                                                                                         48
      assessment and/or remediation can be reasonably estimated. Legal costs incurred in connection with
      loss contingencies are expensed as incurred. The CDFI Fund has employment related cases (e.g.,
      discrimination, Equal Employment Opportunity Commission) in which a loss may be reasonably
      possible, but for which a range of potential loss could not be determined.

(o)   Revenue and Other Income
      The CDFI Fund receives the majority of its funding through appropriations from the U.S. Congress.
      The CDFI Fund receives two-year appropriations that may be used, within statutory limits, for
      awards and operating expenses. Appropriations are recognized as revenues at the time the CDFI
      Fund’s grants are recorded as expenses, and when administrative expenses and provision for bad
      debts covered by budgetary resources are incurred.

      Occasionally, the CDFI Fund receives dividends on its equity investments and may use those funds
      for awards and operating expenses. Dividends are recognized when received.

      Additional revenue is obtained from interest received on direct loans to the public and on uninvested
      funds held by the Treasury Department. Interest is recognized when earned.

(p)   Tax Status
      The CDFI Fund, as a government entity, is not subject to federal, state, or local income taxes and,
      accordingly, no provision for income tax is recorded.

(q)   Fair Value Measurements
      On October 1, 2008 the CDFI Fund adopted the provisions of ASC Topic 820, Fair Value
      Measurements, for fair value measurements of financial assets and financial liabilities and for fair
      values measurements of nonfinancial items that are recognized or disclosed at fair value in the
      financial statements on a nonrecurring basis. This standard defines fair value, establishes a
      consistent framework for measuring fair value and expands disclosure requirements for fair value
      measurements. This standard establishes a fair value hierarchy that prioritizes the inputs to valuation
      techniques used to measure fair value. The hierarchy gives the highest priority to unadjusted quoted
      prices in active markets for identical assets or liabilities (Level 1 measurements) and the lowest
      priority to measurements involving significant unobservable inputs (Level 3 measurements). The
      three levels of the fair value hierarchy are as follows:

      • Level 1 inputs are quoted prices (unadjusted) in active markets for identical assets or liabilities
      that the CDFI Fund has the ability to access at the measurement date.

      • Level 2 inputs are inputs other than quoted prices included within Level 1 that are observable for
      the asset or liability, either directly or indirectly.

      •   Level 3 inputs are unobservable inputs for the asset or liability.

      See Note 7 for more information and disclosures relating to the CDFI Fund’s fair value
      measurements.

(r)   Newly Issued Not Yet Effective Accounting Standards

      In January 2010 FASB issued Accounting Standards Update 2010-06, Improving Disclosures about
      Fair Value Measurements, providing amendments to ASC Topic 820, Fair Value Measurements and
      Disclosures. These amendments require new disclosures pertaining to transfers in and out of Levels
                                                                                                            49
           1 and 2 and activity in Level 3 fair value measurements. These amendments also clarify existing
           disclosures pertaining to levels of disaggregation and inputs and valuation techniques. The new
           disclosures and clarifications of existing disclosures are effective for annual reporting periods
           beginning after December 31, 2009. The CDFI Fund does not expect that these amendments will
           have a material impact on its statement of financial position or statement of operations.

           In July 2010 FASB issued Accounting Standards Update 2010-20, Disclosures about the Credit
           Quality of Financing Receivables and the Allowance for Credit Losses, providing amendments to
           ASC Topic 310, Receivables. The objective of these amendments is for an entity to provide
           disclosures that facilitate financial statement user’s evaluation of the following: 1) the nature of
           credit risk inherent in the entity’s portfolio of financing receivables, 2) how that risk is analyzed and
           assessed in arriving at the allowance for credit losses and 3) the changes and reasons for those
           changes in the allowance for credit losses. The existing disclosures are amended to require
           disclosures about an entity’s financing receivables on a disaggregated basis. The amendments also
           require additional disclosures about financing receivables. For nonpublic entities the disclosures are
           effective for annual reporting periods ending on or after December 15, 2011. The CDFI Fund does
           not expect that these amendments will have a material impact on its statement of financial position or
           statement of operations.

     (s)   Certain amounts in the prior year financial statements have been reclassified to conform to the
           current year presentation.



4)   Fund Balance with Treasury
     Fund balance with Treasury as of September 30, 2010 and 2009 consisted of the following components:

                                                             2010                 2009
                  Available                          $     109,533,868      $   11,442,084
                  Obligated                                 92,393,461           70,230,550
                  Expired                                    1,779,307            1,270,620
                                                     $     203,706,636      $   82,943,254

     Fund balance with Treasury includes appropriated and borrowed funds available to pay liabilities and to
     finance authorized award and purchase commitments.




                                                                                                                50
5)   Loans Receivable
     Loans receivable are primarily from the funds provided to awardees. Receivables consisted of the
     following as of September 30, 2010 and 2009:

                                                                                  2010               2009
     Balance as of beginning of year                                          $  60,658,004 $       61,114,965
      Add: Loans disbursed                                                              -            3,556,284
      Less: Loan repayments                                                      (4,713,165)        (3,918,268)
      Less: Write off of loans                                                     (395,258)           (94,977)
     Allowance for bad debts                                                    (11,278,017)        (9,282,169)
     Loans receivable, net, as of end of year                                 $ 44,271,564 $        51,375,835

     The changes in the allowance for bad debts consisted of the following:

     Balance as of beginning of year                                          $   (9,282,169) $ (15,278,741)
     Decrease (increase) in allowance expensed                                    (2,391,106)     5,901,595
     Accounts credited against the allowance,
      net of redemptions                                                            395,258             94,977
     Balance as of end of year                                                $ (11,278,017) $      (9,282,169)



     Current loans receivable as of September 30, 2010 was $4,629,791 (net of allowance of $1,179,231).
     Long-term loans receivable as of September 30, 2010 was $39,641,773 (net of allowance of $10,098,786).

     Current loans receivable as of September 30, 2009 was $7,974,446 (net of allowance of $1,440,758).
     Long-term loans receivable as of September 30, 2009 was $43,401,389 (net of allowance of $7,841,411).

     As of September 30, 2010 the CDFI Fund had a total recorded investment in impaired loans from troubled
     debt restructurings of $9,913,025, of which $5,175,000 had a related allowance for bad debt of $1,967,500.
     The amount of the recorded investment for which there is no related allowance for bad debt is $4,738,025.
     The CDFI Fund had a total recorded investment in other impaired loans of $466,870 and a $186,748
     related allowance for bad debt. As of September 30, 2009 the CDFI Fund had a total recorded investment
     in impaired loans of $3,073,114 with a related allowance for bad debt of $1,771,742.

     During the years ended September 30, 2010 and 2009 the CDFI Fund had average recorded investments in
     impaired loans of $5,184,062 and $741,083 respectively. During these years the CDFI Fund recognized
     related interest income of $194,267 and $16,682, respectively. The CDFI Fund recognizes interest income
     on impaired loans as earned in accordance with loan agreements.

     As of September 30, 2010 and 2009 there were no commitments to lend additional funds to debtors owing
     receivables whose terms have been modified in troubled debt restructurings.




                                                                                                           51
(6)   Investment Securities
      The carrying amount, net of applicable discounts, gross unrealized holding losses and fair value of held-to
      maturity debt securities by major security type at September 30, 2010 and 2009 are as follows:


                                                                                       Amortized Cost
                                                        Aggregate Fair Gross Unrealized (Net Carrying
                                                           Value             Loss         Amount)

      Investments, Held to Maturity at September 30, 2010:
        Certificates of deposit                         $      150,000 $            -       $     150,000
        Convertible debt securities                            324,103                  -         324,103
        Secondary capital securities                         3,374,986                  -       3,374,986
                    Total                               $    3,849,089 $            -       $   3,849,089


      Investments, Held to Maturity at September 30, 2009:
        Certificates of deposit                         $      250,000 $            -       $     250,000
        Convertible debt securities                            280,000                  -         280,000
        Secondary capital securities                         3,975,000                  -       3,975,000
                    Total                               $    4,505,000 $            -       $   4,505,000


      Maturities of debt securities classified as held-to-maturity were as follows at September 30, 2010:

                                                                                                    Net
                                                                                                  Carrying
                                                                                Fair Value        Amount

        Held to Maturity:
                  Due after one through five years                           $    3,337,268 $       3,337,268
                  Due after ten years                                               511,821           511,821
                                                                            $     3,849,089 $       3,849,089



  The CDFI Fund evaluates whether unrealized losses on investment securities indicate other-than-temporary
  impairment. Significant factors considered include investee audit opinions, regulatory findings and trends in
  various financial criteria. Based on this evaluation, the CDFI Fund recognized no other-than-temporary
  impairment losses of these investments in 2010 or 2009.

  Convertible debt securities consist of non-interest bearing convertible subordinated debentures. As of
  September 30, 2010 and 2009, this category consists of one debenture of $2 million which matures January
  2048 with the option to convert into 200,000 shares of non-voting class B common stock at a $10 per share
  conversion price.

  Secondary capital securities consist of investments that cannot be redeemed prior to scheduled redemption
  dates.


                                                                                                                52
  Certificates of deposits are investments in federal credit union awardees, and have interest rates of 0 percent.

(7)   Fair Value Measurements
      (a)   Fair Value of Financial Instruments

            The following table presents the carrying amounts and estimated fair values of the CDFI Fund’s
            financial instruments at September 30, 2010 and 2009. The fair value of an instrument is the amount
            that would be received to sell an asset or paid to transfer a liability in an orderly transaction between
            market participants at the measurement date.

                                                                  2010                                        2009
                                                    Carrying
                                                     amount                  Fair value     Carrying amount           Fair value


            Financial assets:
                    Fund Balance with Treasury    $ 203,706,636          $    203,707,000   $    82,943,254          $ 82,943,000
                    Loans receivable                 44,271,564                32,203,000        51,375,835             33,858,000
                    Investments, amortized cost       3,849,089                 3,849,000         4,505,000              4,505,000
                    Investments, cost method         15,388,420                19,440,000        21,274,820             25,963,000
                    Interest receivable                 443,960                   444,000          379,340                379,000


            Financial liabilities:
                    Awards payable                   31,893,723                31,894,000         7,909,214              7,909,000
                    Debt                             41,739,350                28,432,000        40,638,011             22,304,000



            The following methods and assumptions were used to estimate the fair value of each class of
            financial instrument:

            Fund Balance with Treasury, interest and other receivable and awards payable: The carrying
            amounts, at face value or cost plus accrued interest, approximate fair value because of the short
            maturity of these instruments.

            Loans receivable, debt, convertible debt securities and secondary capital securities: The fair value is
            determined as the present value of future contractual cash flows discounted at an interest rate that
            reflects the risks inherent in those cash flows. The discount rates approximate rates currently offered
            by local lending institutions for loans of similar terms to companies with comparable risk. The fair
            value of nonperforming loans is determined as the present value of expected future cash flows
            discounted at an interest rate that reflects the risks inherent in those cash flows. The expected cash
            flows were estimated based on the awardee’s financial condition and the long-term potential of the
            business in relation to the maturity date of the loan.

            Non-voting equity securities: The CDFI Fund records these equity investments under the cost
            method of accounting. The CDFI Fund considers qualitative assessments of the viability of the
            investee, fundamental financial analysis and evaluation of the financial statements of the investee
            and prospects for its future.

            Certificates of deposit: The fair value of certificates of deposit is discounted cash flow at a market
            rate.

                                                                                                                                     53
      (b)   Fair Value Hierarchy

            The CDFI Fund does not record investments or loans at fair value on a recurring basis. However,
            from time-to-time, the CDFI Fund records nonrecurring fair value adjustments to reflect partial
            write-downs that are based on current financial indicators of the awardees. The CDFI Fund uses
            qualitative assessments of the viability of the awardee, evaluation of the financial statements of the
            awardee and prospects for its future. Financial statement disclosures and audit opinions were
            reviewed for the most recent five years for indications of going concern or operational issues.
            Calculations of pro-rata equity, capitalized cash flow analysis, total cash and other trend analysis
            were performed to determine fair value.

            For assets measured at fair value on a nonrecurring basis in 2010 and 2009 that were still on the
            balance sheet at year end, the following tables provides the level of valuation assumptions used and
            the carrying value of the related individual assets or portfolios at year end.

                                         F air Value Measurements as of September 30, 2010 Using
                                           Level 1       Level 2          Level 3        Total Loss

            Investments, cost       $          —      $        —        $   15,388,420     $   (1,965,000)

                    T otal           $         —      $        —        $   15,388,420     $   (1,965,000)




                                         F air Value Measurements as of Septem ber 30, 2009 Using
                                           Level 1       Level 2          Level 3         Total Loss

            Investments, cost       $         —      $        —        $    21,274,820    $      (755,000)

                    T otal          $         —      $        —        $    21,274,820    $      (755,000)


            None of the CDFI Fund’s investments are in publicly traded entities for which a share price can be
            readily obtained; accordingly, the CDFI Fund used Level 3 inputs to measure fair value of
            investments.

            Investments with a carrying value of $17,353,420 were written down to their fair value of
            $15,388,420, resulting in an impairment loss of $1,965,000, which was included in earnings for
            2010. Investments with a carrying value of $22,029,820 were written down to their fair value of
            $21,274,820 resulting in an impairment loss of $755,000, which was included in earnings for 2009.


(8)   Cost Method Investments
      Investments accounted for under the cost method consist of non-voting common stock held in for-profit
      CDFI Program awardees and preferred non-voting stock held in two awardees. The aggregate amount of
      these investments is $15,388,420 and $21,274,820 at September 30, 2010 and 2009 respectively. All
      securities were evaluated for impairment. Two investments were written off during fiscal year 2010
      totaling $3,921,400.

(9)   Equity Method Investments
      Investments accounted for under the equity method consist of a Class B limited partnership interest in
                                                                                                                 54
    Sustainable Jobs Fund, LP (12%), an interest in Pacific Community Ventures (9%), a non-voting
    redeemable transferable interest in BCLF Ventures II, LLC (18%) and three units of preferred interest in
    Shorebridge Capital LLC (17%). These totaled $3,018,116 and $3,341,762 at September 30, 2010 and
    2009, respectively.

(10) Debt
    Debt consists of amounts borrowed from the U.S. Treasury Department and included the following activity
    for the years ended September 30, 2010 and 2009:

                                                                                2010              2009

     Beginning balance                                                 $      40,638,011 $      41,402,862
     New borrowings                                                            6,309,129         2,814,895
     Repayments                                                               (5,207,790)       (3,579,746)

                     Ending balance                                    $      41,739,350   $    40,638,011

    The payments to Treasury are due on September 30 of each year of maturity. Principal payments on this
    debt as of September 30, 2010 are as follows:

                     Fiscal Year                                           Principal Payments
                       2011                                                   $       -
                       2012                                                      1,006,714
                       2013                                                        745,029
                       2014                                                        420,805
                       2015                                                            -
                       Later years, through 2037                                39,566,802
                                                                              $41,739,350


    During fiscal year 2010, the CDFI Fund borrowed $5,879,499 due to downward subsidy reestimate and
    $429,630 to meet annual interest payments due to the Treasury Department, at interest rates ranging from
    1.85% to 6.36%, depending on maturity dates or risk categories.

    During fiscal year 2009, the CDFI Fund borrowed $2,325,810 to finance current year direct loan
    commitments and $489,085 to meet annual interest payments due to the Treasury Department, at interest
    rates ranging from 3.55% to 6.48%, depending on maturity dates or risk categories.

    Interest paid in cash for the years ended September 30, 2010 and 2009 was $2,135,561 and $2,072,015,
    respectively.

    The CDFI Fund has permanent indefinite borrowing authority to fund downward subsidy reestimates and
    annual interest payments to the Treasury Department. These costs do not reduce the CDFI Fund’s net
    position.

(11) Commitments
    (a)     Operating Leases
            The CDFI Fund leases office space from the General Services Administration in the Homer Building
            located in Washington, D.C. under the terms of an operating lease (renewed in FY 2007) which

                                                                                                              55
      expires in January 2012. The CDFI Fund also leases equipment under the terms of an operating
      lease. The total operating lease expense was $1,492,285 and $1,485,251 for the years ended
      September 30, 2010 and 2009, respectively.

      Future minimum payments due under these operating leases as of September 30, 2010 were as
      follows:



                                                        Minimum lease
               Fiscal Year                                 payments
                  2011                                     $1,490,221
                  2012                                        385,101
                  2013                                         20,276
                  2014                                         20,276
                  2015                                         20,276
                                                           $1,936,150

(b)   Award and Purchase Commitments
      As of September 30, 2010 and 2009, award commitments amounted to $57,091,588 and
      $58,624,309, respectively. Award commitments relate to CDFI Program and Native Initiative
      Program awards which were approved by CDFI Fund management but not disbursed as of the end of
      the year. These award commitments are not considered liabilities at year-end because the awardees
      have not met the conditions required for payment. Award commitments pertaining to the Bank
      Enterprise Award (BEA) Program of $24,727,288 and $7,909,214 as of September 30, 2010 and
      2009, respectively, represent reimbursable expenditures and are excluded from these amounts since
      they are reflected as liabilities on the CDFI Fund’s balance sheet. Award commitments pertaining
      to CDFI Program of $7,166,435 as of September 30, 2010 are also reflected as liabilities as these
      awardees have met the conditions required for payment.

      Purchase commitments of $2,980,007 and $3,911,158 as of September 30, 2010 and 2009,
      respectively, relate to the unexpired portion of contracts, and purchase orders relating to goods and
      services not yet received.




                                                                                                          56
(12) Unexpended Appropriations
       Unexpended appropriations for the years ended September 30, 2010 and 2009 were as follows:

                                                                                2010                2009

       Beginning unexpended appropriations                           $         91,546,608    $     81,220,327
         Appropriations received                                              260,250,000         207,000,000
         Appropriations for Subsidy Reestimate                                  1,946,321                  —
         Appropriations cancelled                                                (263,955)           (961,987)
         Appropriations expended                                             (169,030,773)       (195,711,732)
         Downward Subsidy Reestimate Adjustment                                (5,879,499)                 —
                Change in unexpended appropriations                            87,022,094          10,326,281
       Ending unexpended appropriations                              $       178,568,702     $     91,546,608




(13)    Imputed Financing

       Imputed financing represents specific expenses relating to the CDFI Fund paid for by another Federal
       organization. The components of imputed financing for the years ended September 30, 2010 and 2009 are
       as follows:

                                                                                 2010              2009

       Pension Cost (CSRS Retirement Plan)                               $        114,659    $       82,351
       Pension Cost (FERS Retirement Plan)                                        104,734            14,454
       Health Insurance (Health Benefits Program)                                 375,031           310,824
       Life Insurance (Group Life Insurance Program)                                1,095               952
       Audit Fees                                                                 343,591           323,712

                      Total                                              $        939,110    $      732,293




                                                                                                              57
(14) Administrative Expenses
     Administrative expenses consist of the following for the years ended September 30, 2010 and 2009:


                                                                              2010               2009

     Personnel compensation and benefits                               $     8,644,359   $     7,248,561
     Travel                                                                    214,433           221,162
     Rent, communications, utilities and miscellaneous charges               2,327,266         2,636,858
     Contractual services                                                    7,552,778         5,372,395
     Information technology systems maintenance                                 86,771           258,359
     Amortization                                                              447,807           607,914
     Supplies and printing                                                     134,136           191,385
     Other                                                                      38,602            95,797

                     Total                                             $    19,446,152   $    16,632,431



(15) Related Party Transactions
     The CDFI Fund has Interagency agreements with the Department of Treasury. As of September 30, 2010
     these related party expenses amounted to $2,608,275.

     Expenses were recorded as follows: Interagency Agreements with Treasury’s Departmental Offices,
     Office of Financial Management (OFM) for financial management services, conference and events;
     postage; human resources services, for the amount of $825,615. An Interagency Agreement with the
     Working Capital Fund shared IT services from the Office of the Chief Information Officer, for the amount
     of $255,408. An Interagency Agreement with Treasury’s Departmental Offices, Office of the Chief
     Information Officer for IT network administration services for the amount of $582,223. An Interagency
     Agreement with the Bureau of Public Debt (BPD) for accounting services, e-Travel and Prism for the
     amount of $676,276. An Interagency Agreement with BPD for application intake process and website
     hosting, for the amount of $252,563. An Interagency Agreement with Alcohol and Tobacco Tax and Trade
     Bureau for IT services for the amount of $16,190.

(16) Subsequent Events
     The CDFI Fund has evaluated subsequent events from the date of statement of financial position through
     November 10, 2010, the date at which the financial statements were available to be issued, and determined
     there are no other items to disclose.




                                                                                                           58
Appendix A
                                                                                   Appendix A
                                                               FY 2009 CDFI Fund Award and Allocation Activities
                                                                                                                                                                        Allocation of New
                                 FA Awards                     SECA/TA Only Awards (      NI Awards                  BEA Awards           Total Awards                 Markets Tax Credits (2)
   STATE                         #           $               #          $                 #           $          #            $            #              $               #               $
Alabama                             0               $0         0              $0              -             $0     -                 $0        -                  $0          -                  $0
Alaska                              0               $0         0              $0             4        $868,661     -                 $0       4            $868,661           -                  $0
Arizona                              1      $1,000,000         0              $0             6      $2,877,793     1           $700,000       8           $4,577,793          1         $40,000,000
Arkansas                             0              $0         0              $0              -             $0     -                 $0        -                  $0          1         $55,000,000
California                         10      $16,000,000         7      $1,972,539             2        $243,526     6         $3,426,252      25          $21,642,317        10         $441,000,000
Colorado                             0              $0         1        $100,000              -             $0     -                 $0       1            $100,000           3        $140,000,000
Connecticut                          1        $910,000         0              $0              -             $0     1           $432,000       2           $1,342,000          1         $85,000,000
Delaware                             0              $0         0              $0              -             $0     1           $700,000       1             $700,000          -                  $0
District of Columbia                 3      $3,000,000         2        $594,992              -             $0     1           $700,000       6           $4,294,992          4        $277,000,000
Florida                              0              $0         0              $0              -             $0     1           $700,000       1             $700,000          1         $75,000,000
Georgia                              1      $1,000,000         2        $850,000              -             $0     3           $604,282       6           $2,454,282          3        $120,000,000
Hawaii                               0              $0         1        $100,000             3        $845,000     -                 $0       4             $945,000          -                  $0
Idaho                                0              $0         0              $0              -             $0     -                 $0        -                  $0          -                  $0
Illinois                             3      $4,000,000         2        $194,582              -             $0   14          $6,732,686      19          $10,927,268          4        $136,250,000
Indiana                              0              $0         0              $0              -             $0     -                 $0        -                  $0          1         $15,000,000
Iowa                                 0              $0         1        $500,000              -             $0     -                 $0       1             $500,000          2        $110,000,000
Kansas                               0              $0         0              $0              -             $0     -                 $0        -                  $0          -                  $0
Kentucky                            3       $5,000,000         1        $500,000              -             $0     7           $581,700      11           $6,081,700          3         $82,000,000
Louisiana                            2      $4,000,000         0              $0              -             $0     1           $700,000       3           $4,700,000          4        $213,500,000
Maine                                2      $3,000,000         0              $0             1        $877,550     -                 $0       3           $3,877,550          1        $112,000,000
Maryland                             0              $0         2        $195,288              -             $0     -                 $0       2            $195,288           4        $215,000,000
Massachusetts                        2      $3,000,000         5      $1,955,651              -             $0     1           $477,474       8           $5,433,125          5        $295,000,000
Michigan                             2      $3,000,000         0              $0             3        $426,532     -                 $0       5           $3,426,532          1         $50,000,000
Minnesota                            5      $7,000,000         4      $1,700,000             3        $872,131     4         $1,932,807      16          $11,504,938          3        $215,000,000
Mississippi                          0              $0         0              $0              -             $0     1            $14,580       1              $14,580          1         $20,000,000
Missouri                             1      $1,000,000         0              $0              -             $0     1           $700,000       2           $1,700,000          4        $215,000,000
Montana                              1      $2,000,000         2        $633,010             1        $119,739     -                 $0       4           $2,752,749          1         $40,000,000
Nebraska                             0              $0         1        $600,000              -             $0     -                 $0       1             $600,000          -                  $0
Nevada                               0              $0         0              $0              -             $0     -                 $0        -                  $0          -                  $0
New Hampshire                        1      $2,000,000         0              $0              -             $0     -                 $0       1           $2,000,000          1         $65,000,000
New Jersey                           2      $3,000,000         1        $500,000              -             $0     1           $700,000       4           $4,200,000          2         $55,000,000
New Mexico                           0              $0         2      $1,100,000             2        $620,000     -                 $0       4           $1,720,000          -                  $0
New York                           13      $19,800,000         8      $3,222,761             1         $24,390     1           $700,000      23          $23,747,151        10         $538,250,000
North Carolina                       2      $4,000,000         0              $0             2        $612,174     1            $72,000       5           $4,684,174          1         $50,000,000
North Dakota                        0               $0         1        $600,000             1        $132,377     -                 $0       2            $732,377           -                  $0
Ohio                                 3      $2,500,000         1        $500,000              -             $0     -                 $0       4           $3,000,000          5        $170,000,000
Oklahoma                            1       $2,000,000         0              $0             2      $1,266,522     -                 $0       3           $3,266,522         4         $170,000,000
Oregon                              3       $5,000,000         0              $0              -             $0     1           $216,547       4           $5,216,547          2         $60,000,000
Pennsylvania                        5       $9,000,000         5      $1,424,392              -             $0     1           $165,501      11          $10,589,893          2        $135,000,000
Puerto Rico                          1      $1,000,000         3        $797,394              -             $0     -                 $0       4           $1,797,394          -                  $0
Rhode Island                         0              $0         0              $0              -             $0     -                 $0        -                  $0          -                  $0
South Carolina                       0              $0         1        $600,000             1        $149,281     1            $71,726       3            $821,007           1        $100,000,000
South Dakota                         1      $1,000,000         1         $95,932             6      $3,369,580     -                 $0       8           $4,465,512          1         $80,000,000
Tennessee                            1      $2,000,000         1         $27,500              -             $0     2           $706,593       4           $2,734,093          -                  $0
Texas                                4      $4,000,000         1        $500,000             1         $32,756     1           $104,864       7           $4,637,620          2         $55,000,000
Utah                                 0              $0         1        $500,000              -             $0     -                 $0       1             $500,000          -                  $0
U.S. Virgin Islands                  0              $0         0              $0              -             $0     -                 $0        -                  $0          -                  $0
Vermont                              3      $6,000,000         0              $0              -             $0     -                 $0       3           $6,000,000          1         $30,000,000
Virginia                             2      $2,000,000         0              $0              -             $0     1            $53,739       3           $2,053,739          6        $270,000,000
Washington                           2      $2,000,000         4        $754,876             3        $864,989     -                 $0       9           $3,619,865          2         $50,000,000
West Virginia                        0              $0         1        $600,000              -             $0     -                 $0       1            $600,000           -                  $0
Wisconsin                            4      $3,750,000         0              $0             2        $735,381     2         $1,139,575       8           $5,624,956         4         $220,000,000
Wyoming                              0              $0         0              $0             1        $860,002     -                 $0       1            $860,002           -                  $0
Amounts Awarded in FY
2009 Funding Round                85 $122,960,000            62 $21,118,917 -              45 $15,798,384        55    $22,332,326         247    $182,209,627           102      $5,000,000,000


(1) Consists of both Technical Assistance Awards and Small and Emerging CDFIs Assistance (SECA) Awards
(2) FY 2009 data was restated to reflect awards announced in FY 2009




                                                                                                                                                                                              59
Appendix B
                                                                              Appendix B
                                                          FY 2010 CDFI Fund Award and Allocation Activities
                                                                                                                                                                   Allocation of New
                             FA Awards                 TA Awards (1)               NI Awards                    BEA Awards           Total Awards                 Markets Tax Credits
   STATE                     #             $             #           $             #            $           #            $            #               $              #               $
Alabama                                                                                                       2           $205,227       2             $205,227          -                  $0
Alaska                                                     1         $97,024          2         $705,642                                 3             $802,666          1         $50,000,000
Arizona                         1          $750,000                                   5        $1,225,428                                6           $1,975,428          1         $25,000,000
Arkansas                                                                                                                                  -                  $0          1         $70,000,000
California                     16        $11,032,646       3        $252,726          2 $        252,376     9          $4,864,339      30          $16,402,087         10        $448,000,000
Colorado                        4         $2,345,230       1         $91,867          1         $500,000                                 6           $2,937,097          2         $40,000,000
Connecticut                     1           $750,000       1         $91,803                                                             2             $841,803          -                  $0
Delaware                                                                                                                                  -                  $0          -                  $0
District of Columbia            4         $3,000,000                                                         1           $600,000        5           $3,600,000          5        $260,000,000
Florida                         2         $1,500,000                                                                                     2           $1,500,000          1         $45,000,000
Georgia                         2         $1,250,000                                                         1           $600,000        3           $1,850,000          1         $70,000,000
Hawaii                                                     1         $94,140          3         $737,047                                 4             $831,187          -                  $0
Idaho                           2         $1,450,000                                                                                     2           $1,450,000          -                  $0
Illinois                        6         $4,350,000                                                        13          $6,468,885      19          $10,818,885          3        $165,000,000
Indiana                         1           $750,000                                                         3             $39,008       4             $789,008          1         $50,000,000
Iowa                            1           $750,000                                                                                     1             $750,000          3        $215,000,000
Kansas                                                                                                                                    -                  $0          -                  $0
Kentucky                        5         $3,750,000                                                        17           $892,139       22           $4,642,139          1         $25,000,000
Louisiana                       1           $750,000                                                         2           $724,357        3           $1,474,357          5        $300,000,000
Maine                           2         $1,500,000       1         $50,000                                                             3           $1,550,000          1        $125,000,000
Maryland                        5         $3,592,282                                  1         $649,907     1            $517,243       7           $4,759,432          6        $185,000,000
Massachusetts                   8         $5,199,991       1         $94,572                                 1            $600,000      10           $5,894,563          3        $230,000,000
Michigan                        1           $750,000       1        $100,000          1         $149,599     1            $131,080       4           $1,130,679          3        $128,000,000
Minnesota                       6         $4,350,000       1        $100,000          2         $122,286     3          $1,800,000      12           $6,372,286          3        $180,000,000
Mississippi                     2         $1,500,000       1         $64,990                                 1            $600,000       4           $2,164,990          -                  $0
Missouri                        2         $1,500,000                                                                                     2           $1,500,000          7        $420,000,000
Montana                         2         $1,500,000       1         $97,659          2         $293,638                                 5           $1,891,297          -                  $0
Nebraska                        1           $632,293       1         $56,945          1         $106,700                                 3             $795,938          -                  $0
Nevada                                                                                                                                    -                  $0          -                  $0
New Hampshire                   2         $1,500,000                                                                                     2           $1,500,000          -                  $0
New Jersey                      3         $2,250,000       1         $98,350                                 1           $600,000        5           $2,948,350          -                  $0
New Mexico                      3         $1,900,000       2        $188,698          3         $919,712                                 8           $3,008,410          -                  $0
New York                       17        $12,127,522       3        $299,918          1          $22,318     3          $1,455,950      24          $13,905,708          7        $515,000,000
North Carolina                  3         $2,097,178                                                                                     3           $2,097,178          1         $30,000,000
North Dakota                    2           $919,266                                  2         $249,641                                 4           $1,168,907          -                  $0
Ohio                            4         $2,190,000                                                         1            $96,000        5           $2,286,000          6        $205,000,000
Oklahoma                                                                              5         $488,560     1           $600,000        6           $1,088,560          1         $10,000,000
Oregon                          2         $1,500,000       2        $143,890          1         $150,000                                 5           $1,793,890          2         $90,000,000
Pennsylvania                    7         $4,703,514                                                         1           $394,177        8           $5,097,691          3        $109,000,000
Puerto Rico                                                                                                                               -                  $0          2         $55,000,000
Rhode Island                                               1         $89,285                                                             1              $89,285          -                  $0
South Carolina                  1           $750,000                                                         2           $675,075        3           $1,425,075          1         $60,000,000
South Dakota                    3         $2,250,000                                  6        $2,220,901                                9           $4,470,901          -                  $0
Tennessee                       1           $750,000                                                         1           $600,000        2           $1,350,000          1         $30,000,000
Texas                           5         $3,422,000       2        $199,233                                                             7           $3,621,233          3        $155,000,000
Utah                            1           $597,300                                                                                     1             $597,300          -                  $0
U.S. Virgin Islands                                                                                                                       -                  $0          -                  $0
Vermont                         3         $2,250,000       1         $74,085                                                             4           $2,324,085          -                  $0
Virginia                        2         $1,500,000                                                         1           $600,000        3           $2,100,000          3        $185,000,000
Washington                      6         $3,208,591       1         $90,278          2         $283,977                                 9           $3,582,846          3        $105,000,000
West Virginia                   1           $750,000       1         $96,400                                                             2             $846,400          -                  $0
Wisconsin                       6         $4,350,000                                  4         $525,412     3          $1,658,808      13           $6,534,220          8        $420,000,000
Wyoming                                                    1        $100,000          1         $649,982                                 2             $749,982          -                  $0


Amounts Awarded in FY
2010 Funding Round           147 $101,967,813            29 $2,571,863         -    45 $10,253,126          69    $24,722,288         290    $139,515,090              99 $5,000,000,000


Note: New Markets Tax Credit - In October 2009, the CDFI Fund announced that 99 applicants were awarded $5.0 billion in NMTC allocation authority, including the additional $1.5
billion provided through the Recovery Act.




                                                                                                                                                                                         60
Appendix C

                                                                  Appendix C: Aggregate Awards
                                                                                                                                             Total Awards From     NMTC             Allocations
  State                         FA Awards                 TA             Native Initiative Awards (1)     BEA Awards        FEC Awards            Inception                   (2)
Alabama                                 $145,000             $475,500                                $0          $820,302               $0              $1,440,802               $40,000,000
Alaska                                $7,912,500             $403,024                        $2,620,383                $0               $0             $10,935,907               $90,000,000
Arizona                               $7,556,500             $491,867                        $7,504,685        $1,509,288               $0             $17,062,340              $300,000,000
Arkansas                             $10,239,300             $605,647                           $70,000        $5,075,223               $0             $15,990,170              $140,000,000
California                           $83,376,712           $8,478,205                        $1,359,969       $48,376,832         $400,000            $141,991,718            $2,112,000,000
Colorado                             $10,881,300           $4,696,163                          $770,000        $2,116,915         $400,000             $18,864,378              $472,000,000
Connecticut                           $4,543,500             $954,847                                $0          $805,205               $0              $6,303,552               $85,000,000
Delaware                                $923,731             $122,000                                $0        $3,451,000               $0              $4,496,731               $50,000,000
District of Columbia                 $20,803,342           $1,948,842                                $0        $7,857,450               $0             $30,609,634            $1,855,000,000
Florida                              $19,323,800           $1,355,798                                $0       $10,191,003               $0             $30,870,601              $135,000,000
Georgia                               $5,533,900           $2,085,281                                $0        $7,990,146         $400,000             $16,009,327             $504,000,000
Hawaii                                $1,000,000           $1,001,965                        $2,303,168        $1,069,199               $0              $5,374,332               $28,000,000
Idaho                                 $4,984,300             $200,000                                $0                $0               $0              $5,184,300                        $0
Illinois                             $44,026,975           $3,253,117                                $0       $54,779,048               $0            $102,059,140             $801,300,000
Indiana                               $3,058,000             $362,500                                $0        $1,648,196               $0              $5,068,696             $143,000,000
Iowa                                  $4,740,000             $765,050                                $0          $508,500               $0              $6,013,550             $474,700,000
Kansas                                $1,903,000             $240,504                           $25,000        $2,752,432               $0              $4,920,936                        $0
Kentucky                             $27,656,525           $1,311,460                                $0        $7,470,451               $0             $36,438,436             $305,500,000
Louisiana                            $11,405,603             $846,270                                $0        $4,096,775               $0             $16,348,648            $1,681,000,000
Maine                                $16,558,856             $941,951                        $3,366,418        $1,481,251               $0             $22,348,476             $606,000,000
Maryland                             $19,548,360           $1,645,806                          $825,947        $2,847,464               $0             $24,867,577            $1,448,000,000
Massachusetts                        $26,323,200           $6,732,082                                $0        $8,256,879               $0             $41,312,161            $1,153,000,000
Michigan                              $9,865,000             $627,404                        $1,422,507        $1,363,766               $0             $13,278,677             $280,000,000
Minnesota                            $30,427,360           $3,545,615                        $4,375,799        $9,374,807               $0             $47,723,581            $1,008,000,000
Mississippi                          $13,791,250             $388,366                                $0        $3,144,437               $0             $17,324,053               $70,000,000
Missouri                              $3,810,109             $259,824                                $0        $6,148,034               $0             $10,217,967            $1,172,000,000
Montana                               $6,037,145           $2,032,725                        $1,477,917          $315,962               $0              $9,863,749               $70,000,000
Nebraska                                $982,293           $1,661,573                          $371,700           $97,832               $0              $3,113,398               $23,000,000
Nevada                                        $0             $581,452                                $0          $339,200               $0                $920,652                        $0
New Hampshire                        $13,065,000              $93,425                                $0        $1,132,000         $400,000             $14,690,425               $65,000,000
New Jersey                           $16,476,064           $1,304,819                                $0        $6,562,390               $0             $24,343,273             $413,000,000
New Mexico                           $11,213,011           $1,778,363                        $1,827,411         $185,705                $0             $15,004,490             $110,000,000
New York                            $107,426,627          $12,757,871                          $230,708       $53,676,276               $0            $174,091,482            $3,429,250,000
North Carolina                       $35,509,523           $3,054,383                        $2,405,020       $28,766,498         $400,000             $70,135,424             $830,000,000
North Dakota                          $1,385,000             $838,786                          $965,886           $15,000               $0              $3,204,672                        $0
Ohio                                 $12,469,620           $3,513,058                                $0        $3,851,203               $0             $19,833,881            $1,363,000,000
Oklahoma                              $4,734,190             $599,550                        $5,485,337        $3,001,680               $0             $13,820,757             $400,000,000
Oregon                               $11,551,250             $672,891                          $272,561        $6,569,895               $0             $19,066,597             $461,500,000
Pennsylvania                         $52,049,971           $5,416,427                                $0        $2,433,005               $0             $59,899,403             $657,500,000
Puerto Rico                           $1,300,000             $988,041                                $0                $0               $0              $2,288,041               $55,000,000
Rhode Island                           $750,000              $479,185                                $0                $0               $0              $1,229,185                        $0
South Carolina                        $1,250,000             $992,338                          $149,281        $2,886,980               $0              $5,278,599             $349,000,000
South Dakota                         $10,416,403             $677,932                       $10,925,452         $722,250                $0             $22,742,037             $130,000,000
Tennessee                            $12,073,178             $177,600                           $95,000        $5,625,766               $0             $17,971,544               $65,250,000
Texas                                $25,159,267           $5,026,442                           $32,756       $15,247,856               $0             $45,466,321             $247,000,000
Utah                                  $2,000,000           $1,489,800                          $353,000         $120,000                $0              $3,962,800             $100,000,000
U.S. Virgin Islands                    $770,000                    $0                                $0                $0               $0                $770,000                        $0
Vermont                              $17,820,549             $564,140                                $0                $0               $0             $18,384,689               $32,000,000
Virginia                              $8,794,385           $1,523,076                                $0          $676,739               $0             $10,994,200              $711,000,000
Washington                           $13,364,495           $2,422,439                        $2,875,766        $3,080,991               $0             $21,743,691              $280,000,000
West Virginia                         $3,189,000           $1,028,168                                $0                $0               $0              $4,217,168                $4,000,000
Wisconsin                            $19,556,986           $1,079,103                        $2,835,136        $7,914,818               $0             $31,386,043            $1,251,000,000
Wyoming                                       $0             $100,000                        $2,774,348                $0               $0              $2,874,348                        $0

       TOTALS                    $779,682,080          $94,592,675                       $57,721,155      $336,356,649        $2,000,000       $1,270,352,559             $26,000,000,000


(1) Consists of awards made under all Native American Programs.

(2) Consists of New Markets Tax Credit (NMTC) allocatees headquarted in these states. Amounts shown represents amount
    of equity supported by tax credits.




                                                                                                                                                                                          61
Appendix D
                                  GLOSSARY OF TERMS
ALLOCATION (OF TAX CREDITS)

Through the New Markets Tax Credit (NMTC) Program, the CDFI Fund provides a Community Development
Entity (CDE) with the authority to offer tax credits to investors in exchange for an equity investment in the
CDE.

CAPITAL MAGNET FUND (CMF)

Through the Capital Magnet Fund (CMF), the CDFI Fund provides competitively awarded grants to CDFIs and
qualified nonprofit housing organizations. CMF awards can be used to finance affordable housing activities as
well as related economic development activities and community service facilities. Awardees are able to utilize
financing tools such as loan loss reserves, loan funds, risk-sharing loans, and loan guarantees to produce eligible
activities whose aggregate costs are at least ten times the size of the award amount.

COMMUNITY DEVELOPMENT ENTITY (CDE)

Through the New Markets Tax Credit Program, the CDFI Fund certifies an entity as a CDE if it is a duly
organized entity that is treated as a domestic corporation or partnership for federal income tax purposes and that
(a) has a primary mission of serving, or providing investment capital for, Low-Income Communities or Low-
Income Persons; and (b) maintains accountability to residents of Low-Income Communities through their
representation on any governing board of the entity.

COMMUNITY DEVELOPMENT FINANCIAL
INSTITUTION (CDFI)

A nongovernmental entity that meets the following eligibility criteria and is certified by the CDFI Fund as such:

    1. Has a primary mission of promoting community development;
    2. Serves an eligible investment area or targeted population;
    3. Has a predominant business activity of providing Financial Products, loans or certain equity
       investments;
    4. Provides development activities and services that promote community development (ex. financial
       management technical assistance, financial or credit counseling) in conjunction with its loans and
       development investments; and
    5. Maintains accountability to residents of the investment area or targeted population through
       representation on its governing board or otherwise.

Additional eligibility criteria apply if the entity is a depository institution holding company or an insured
depository institution. The CDFI Fund’s requirements for CDFI certification and eligibility are found at 12 CFR
1805.200.

COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND (CDFI FUND)

A government corporation within the Department of the Treasury, created to promote economic revitalization
and community development through investment in and assistance to CDFIs, including enhancing their
liquidity. It was created by Congress and has the duties and responsibilities specified in the Riegle Community
Development and Regulatory Improvement Act of 1994.
                                                                                                                 62
COMMUNITY INVESTMENT IMPACT SYSTEM (CIIS)

CIIS is a web-based system managed by the CDFI Fund that collects and stores institution-level and
transaction-level data from CDFIs and CDEs.

FINANCIAL EDUCATION AND COUNSELING (FEC) PILOT PROGRAM

Through the Financial Education and Counseling (FEC) Pilot Program, the CDFI Fund provides grants to
organizations to establish and expand financial education and counseling services for prospective homebuyers.

CDFI FUNDING ROUND

Each CDFI Fund application and award is identified with a funding round that corresponds to the fiscal year for
which the CDFI Fund issues a Notice of Funds Availability (NOFA).

NATIVE AMERICAN CDFI
ASSISTANCE (NACA) PROGRAM

Through the Native American CDFI Assistance (NACA) Program, the CDFI Fund provides Financial Assistance
awards to eligible Native American CDFIs to support their financing activities, as well as Technical Assistance
awards to existing Native CDFIs and Native organizations seeking to become or create a CDFI.

A Native American CDFI is defined as a CDFI with greater than 50 percent of its activities directed to Native
American Communities. In FY 2005, the NACA Program replaced the NACD and NATA Programs.

NATIVE AMERICAN CDFI
DEVELOPMENT (NACD) PROGRAM

Replaced by the NACA Program in FY 2005, the Native American CDFI Development (NACD) Program provided
Technical Assistance grants to “sponsoring organizations,” such as Tribes or entities primarily serving Native
American Communities, seeking to create Native American CDFIs.

NATIVE AMERICAN TECHNICAL ASSISTANCE (NATA) COMPONENT

Replaced by the NACA Program in FY 2005, the Native American Technical Assistance (NATA) Component
was similar to the NACD Program, the difference being that the NATA Component was limited to CDFIs and
entities proposing to become CDFIs. NATA grants were provided as part of the Technical Assistance
Component of the CDFI Program.

NEW MARKETS TAX CREDIT (NMTC) PROGRAM

Through the New Markets Tax Credit (NMTC) Program, the CDFI Fund provides allocations of tax credits to
qualified Community Development Entities (CDEs). The CDEs in turn provide tax credits to private sector
investors in exchange for their investment dollars; investment proceeds received by the CDEs are to be used to
make loans and equity investments in low-income communities.




                                                                                                                63
QUALIFIED ACTIVE LOW-INCOME COMMUNITY
BUSINESS (QALICB)

A QALICB is a real estate project located in a qualified low-income community or an operating business that has
substantial business operations in a qualified low income community. Non-profit organizations, mixed-use real
estate development, retail, industrial and many other types of businesses qualify under this definition. To be
considered a QALICB, a business is evaluated against income, property, and services tests and is limited in the
amount of collectables and non-qualified financial property. QALICBs are eligible to receive QLICIs under the
New Markets Tax Credit Program. For a technical definition see Internal Revenue Code §45D(d)(2).

QUALIFIED EQUITY INVESTMENT (QEI)

An equity investment in a CDE through the NMTC Program meeting the following criteria: the investment
proceeds are used by the CDE to make Qualified Low-Income Community Investments (QLICIs), the CDE
designates the investment as a QEI, and the investment proceeds are received by the CDE within 5 years from the
date of its NMTC allocation.

QUALIFIED LOW-INCOME COMMUNITY
INVESTMENT (QLICI)

An investment by a CDE in the form of: 1) an investment in, or loan to, any qualified active low-income
community business; 2) the purchase from a CDE of any such loan; 3) financial counseling and other services to
businesses in, and residents of, low-income communities; or 4) any equity investment in, or loan to, any CDE.

TECHNICAL ASSISTANCE

Activities that enhance the capacity of an organization to carry out its business and purpose, such as training of
management and other personnel; developing programs and loan or investment loan products; improving
financial management and internal operations; and enhancing an organization’s community impact.

UNDERSERVED COMMUNITY

An Underserved Community may include the following: 1) an Investment Area under the CDFI Program; 2) a
Targeted Population under the CDFI Program or the NMTC Program; 3) a Low-Income Community under the
NMTC Program; and/or 4) a Distressed Community under the BEA Program. Many Native American
Communities also qualify as Underserved Communities.

“Native American Communities” are defined as any Native American, Alaska Native or Native Hawaiian
populations, lands or Census-equivalent entities, with the exception of State or Tribal Designated Statistical
Areas.




                                                                                                                 64
65
